<html>
<title> - RESPONDING TO HOMELAND THREATS: IS OUR GOVERNMENT ORGANIZED FOR THE CHALLENGE?</title>
<body><pre>[Senate Hearing 107-207]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-207

  RESPONDING TO HOMELAND THREATS: IS OUR GOVERNMENT ORGANIZED FOR THE 
                               CHALLENGE?

=======================================================================



                                HEARING

                               before the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION


                               __________

                           SEPTEMBER 21, 2001

                               __________

      Printed for the use of the Committee on Governmental Affairs


76-801              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Holly A. Idelson, Counsel
            Michael L. Alexander, Professional Staff Member
         Hannah S. Sistare, Minority Staff Director and Counsel
                    Robert J. Shea, Minority Counsel
          Jana C. Sinclair, Associate Counsel to the Minority
          Jayson P. Roehl, Minority Professional Staff Member
          John T. Daggett, Minority Professional Staff Member
                     Darla D. Cassell, Chief Clerk
                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     4
    Senator Cleland..............................................     6
Prepared statements:
    Senator Akaka................................................    37
    Senator Voinovich............................................    38

                               WITNESSES
                      Thursday, September 21, 2001

Hon. Warren B. Rudman, Co-Chair, U.S. Commission on National 
  Security/21st Century..........................................     6
Hon. Gary Hart, Co-Chair, U.S. Commission on National Security/
  21st Century...................................................    10
Hon. James S. Gilmore, III, Governor of the Commonwealth of 
  Virginia and Chairman, Advisory Panel to Assess the 
  Capabilities for Domestic Response to Terrorism Involving 
  Weapons of Mass Destruction....................................    12
Hon. L. Paul Bremer, III, Former Ambassador-at-Large for Counter-
  terrorism, U.S. Department of State and Member, Advisory Panel 
  to Assess the Capabilities for Domestic Response to Terrorism 
  Involving Weapons of Mass Destruction..........................    15
Hon. David M. Walker, Comptroller General, U.S. General 
  Accounting Office..............................................    17

                     Alphabetical List of Witnesses

Bremer, Hon. L. Paul, III:
    Testimony....................................................    15
Gilmore, Hon. James S., III:
    Testimony....................................................    12
    Prepared statement...........................................    41
Hart, Hon. Gary:
    Testimony....................................................    10
    Prepared statement...........................................    39
Rudman, Hon. Warren B.:
    Testimony....................................................     6
Walker, Hon. David M.:
    Testimony....................................................    17
    Prepared statement with attachments..........................    53

                                Appendix

New World Coming: American Security in the 21st Century, Major 
  Themes and Implications, The Phase I Report on the Emerging 
  Global Security Environment for the First Quarter of the 21st 
  Century, by the United States Commission on National Security/
  21st Century, September 15, 1999...............................    65
Seeking a National Strategy: A Concert For Preserving Security 
  and Promoting Freedom, The Phase II Report on a U.S. National 
  Security Strategy for the 21st Century, by the United States 
  Commission on National Security/21st Century, April 15, 2000...    76
Road Map for National Security: Imperative for Change, The Phase 
  III Report of the U.S. Commission on National Security/21st 
  Century, by the United States Commission on National Security/
  21st Century, January 31, 2001.................................    90

 
  RESPONDING TO HOMELAND THREATS: IS OUR GOVERNMENT ORGANIZED FOR THE 
                               CHALLENGE?

                              ----------                              


                       FRIDAY, SEPTEMBER 21, 2001

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m., in 
room SD-106, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Cleland, and Thompson.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. I 
apologize to witnesses and to everyone in the room that we had 
to delay the hearing because there were two votes on the floor 
of the Senate. If this does not sound, to two of our witnesses, 
Senators Rudman and Hart, like deja vu all over again, I would 
be surprised, but I welcome all of you here this morning.
    This morning, the Senate Governmental Affairs Committee 
will be considering a question of whether the Federal 
Government, and specifically the Executive Branch, is 
adequately organized to meet threats to the security of the 
American people in the 50 American States. Today's hearing 
complements the series of hearings that the Committee has been 
conducting on protection of the Nation's critical 
infrastructure. It is, also, of course, a response to the 
terrible attacks on America that occurred on September 11.
    My personal response to those attacks has probably been 
like the response of most other Americans, most other members 
of Congress. I have gone from shock to anger to remorse to 
determination that we must, together, do everything we can to 
make as certain as possible that nothing like what happened on 
September 11 ever happens again. The nature, scale, and 
motivation of the attacks were unprecedented and so must be our 
response.
    This Governmental Affairs Committee is primarily an 
oversight and investigative Committee. What we must now attempt 
to understand is how this violation of our Nation was possible. 
In particular, we must ask the difficult question of whether 
our government did enough to protect its citizens. With the 
horrifying images of devastation at the World Trade Center and 
the Pentagon and in Pennsylvania still fresh in our minds, the 
answer to that question must, sadly, be no.
    The purpose of these hearings, in one sense, is to make 
sure that we never have to give that answer to that kind of 
question again. After the attacks, the people who are our 
government did all that was humanly possible to respond. We owe 
a tremendous debt of gratitude to the firefighters and police 
whose courageous efforts saved countless lives at the cost of 
so many of their own, to the EMT personnel, and doctors, and 
nurses who administered aid to the injured and dying, to the 
public servants who manned the crisis support machinery at all 
levels of government, managing priorities, handling logistics 
and making key services of relief and rescue available, to 
members of the military who were deployed to guard against 
further loss of life, to elected leaders who brought a sense of 
hope, unity, and purpose to a Nation stunned by this tragedy, 
including, most recently, the magnificent statement of American 
principles and purpose that President Bush delivered to the 
Congress, to the Nation, and indeed to the world last night.
    Our primary purpose here this morning is not to assign 
blame, it is to prevent future attacks. Even before last week's 
tragic attacks, we had important warnings that our government 
was not as well-prepared to meet these new threats to our 
security to the American homeland as it should have been. For 
that, we can thank the dedicated efforts of at least two 
important commissions that recently looked at this issue: The 
U.S. Commission on National Security in the 21st Century, also 
known as the Hart-Rudman Commission; and the Advisory Panel to 
Assess Domestic Response Capabilities for Terrorism involving 
Weapons of Mass Destruction referred to as the Gilmore 
Commission, which have identified serious deficiencies in our 
Nation's efforts to prepare for, respond to, and prevent 
terrorist acts.
    And, I am proud to say, we can also thank our own General 
Accounting Office, whose oversight committee this is and whose 
Comptroller, David Walker, will testify this morning. GAO has 
given us repeated warnings that are relevant to our agenda this 
morning.
    The chief members of the two panels that I referred to are 
with us today: Senator Hart, Senator Rudman, Governor Gilmore, 
and Ambassador Bremer. I should note that Ambassador Bremer was 
also chair of another commission, the National Commission on 
Terrorism that, in some respects, laid the foundation for the 
work that has followed.
    Though they differ in their approach and recommendations, I 
do see agreement between the Hart-Rudman and Gilmore 
Commissions on three key points: First, they concluded that 
there was a growing threat of homeland attack and how painfully 
accurate they have now been proven to be; second, that the 
Nation lacked a clear strategy to prevent and protect against 
these threats; and, third, that responsibility for homeland 
security was spread among too many agencies without sufficient 
coordination.
    In fact, current responsibility for addressing terrorism 
and other homeland threats is diffused throughout all levels of 
government--local, State, and Federal. At the Federal level, 
coordination, operational planning, and implementation are 
divided and subdivided among at least 40 agencies, bureaus, and 
offices which spend over $11 billion a year. Both commissions 
criticize this state of organization and offered 
recommendations to improve homeland security.
    The Hart-Rudman Commission proposed the establishment of a 
National Homeland Security Agency, an independent agency whose 
director would be a member of the President's Cabinet. The 
Agency would be responsible for coordinating an array of 
Federal activities related to homeland security. The Federal 
Emergency Management Agency, the Coast Guard, the Customs 
Service, the Border Patrol, and other entities that are 
relevant here would be transferred to the new organization, 
which would be functionally organized around prevention, 
protection of critical infrastructure, and emergency 
preparedness and response.
    The Gilmore Commission went in a different direction, 
recommending the creation of a National Office for Combatting 
Terrorism. This new White House office would report directly to 
the President and would be responsible for formulating 
antiterrorism strategy. It would also coordinate terrorism 
policy and have some influence over national budget allocations 
for antiterrorism activities.
    I must say that I come to this hearing favoring the Hart-
Rudman approach, but I want to hear from all sides in this 
important discussion. I favor the Hart-Rudman approach because 
it seems to me that creating a Homeland Security Agency has 
special merit. If you want to get a job done, there is no 
substitute for having an organization with a budget and line, 
as opposed to advisory authority. Because in such a context, 
real people are responsible and accountable for making 
decisions and taking the necessary and appropriate action. 
Within an executive agency, all of the policy, budget, and 
programmatic activities can be integrated and focused toward 
very specific programs and goals.
    Now, as we all know, last night a funny and good thing 
happened on the way to this hearing about a National Homeland 
Security Agency. President Bush, in fact, endorsed such an 
idea. In fact, he went beyond that and, by Executive Order, 
created a National Homeland Security Agency with Governor Ridge 
of Pennsylvania as its designated head with cabinet status.
    This morning it is not clear what the contours, makeup and 
powers of that agency will be. I certainly look forward to 
having this Committee meet with Governor Ridge and others in 
the administration to discuss this proposal, but I feel very 
strongly, though I greet President Bush's action last night as 
a welcome and significant first step toward greater homeland 
protection, that Congress needs to pass a law, after deliberate 
consideration, to make this Homeland Security Agency permanent 
because it is clear that we crossed a bridge on September 11, 
and in a way that has not been true for most of our history for 
the future as far as we can see. We are going to have to be 
prepared to protect the American people as they live and work 
in the 50 United States.
    In the history of America's Government, major 
organizational changes have occurred during times of crisis. 
General Marshall transformed what was a small peacetime Army in 
1939 into the planet's most powerful military force by 1945, 
helping to bring victory in World War II.
    President Truman's realignment of our national security 
infrastructure in 1947 helped us successfully prosecute the 
Cold War. More recently, the sweeping defense reorganization 
mandated by the Goldwater-Nickles Act of 1986 was an essential 
factor in helping us win the Gulf War just 5 years later. 
Similarly bold organizational change is demanded of us now, 
given the events of September 11. This Committee can lead the 
Congress to that change, and I hope and believe that we will.
    I am very pleased to be working shoulder-to-shoulder on 
these critical questions of national security with my friend 
from Tennessee, the Committee's Ranking Republican, Senator 
Fred Thompson. I am proud to call on him now.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you, Mr. Chairman. I cannot think 
of a more timely hearing than this one or a more important one.
    Speaking of coordination or lack thereof, as you know, both 
parties have conferences going on right now which will probably 
keep some of our people away or some may be coming in a little 
bit later. We very well may be discussing some of the issues we 
are discussing here. You and I have discussed what Congress 
should do, in terms of its organization or reorganization.
    I would certainly appreciate our alums here commenting on 
whether or not we need a select committee or a different 
committee or what we should do about current jurisdiction. As 
you know, we have jurisdiction over Capitol Hill, as well as 
the Executive Branch. So I am going to leave briefly, and 
hopefully come back, if that is satisfactory.
    I want to start out by thanking the gentlemen at this 
table. I think the whole Nation owes you a debt of gratitude. 
You have all been telling us what we needed to hear for a long 
time. Our country, and I suppose maybe all democracies which 
are not interested in matters of war or aggression or anything 
other than enjoying peace and freedom, was a little slow out of 
the blocks. We have been very slow out of the blocks here with 
regard to something that you have told us should be the 
Nation's number one priority. You also told us that it is not a 
matter of if we get hit, it is a matter of when we get hit. 
This is pretty serious business. You have been steadfast. You 
have been voices in the wilderness for the most part.
    We get these reports up here. They do not filter up to the 
Executive Branch, they do not filter down to the average 
person. They show up; we have a hearing; three or four of us 
are around; or maybe not. Maybe you get to page 16, in a 
report, but nothing really happens, even though we know it is a 
different world we live in. We are dealing with different kinds 
of people than we ever have before, and we have vulnerabilities 
that we have not had before.
    We have let our guard down, as other countries have on 
other occasions. Other democracies have done so after other 
wars. Ours having been the Cold War victory. While we have 
enjoyed discussing and consuming our peace dividend, things 
have happened around us that we have not responded to. I am 
very pleased, especially that the people we work with so 
closely on a daily basis, and we inundate them with all of our 
little pet ideas sometimes, that GAO has kept a wonderful focus 
on all of this.
    I read their strategic plan, several months ago, and told 
them I thought it was the best document that I had seen. Every 
member of Congress ought to be required to read it, and this 
was in there. It had to do with a handful of issues that are 
important, as most of the things that we deal with up here are 
not. Of course, this is No. 1.
    I hope that, in terms of Senator Rudman, Senator Hart, and 
Mr. Bremer, that we will be able to keep your services somehow, 
some way, as we go forward, and continue to enjoy the 
contribution that you have made to this because more expertise 
reside in you gentleman probably than anywhere else.
    I was noticing, with regard to the counterterrorism 
organization or lack thereof, staff pulled together some points 
here that I think bring it home. who is in charge of these 
activities depends on a number of factors, such as the nature 
of the incident and the perpetrator. For example, FEMA is the 
lead Federal agency in charge of consequence management. The 
Federal Bureau of Investigations is the lead agency for crisis 
management and for domestic terrorism events. The State 
Department is designated as the lead agency for 
counterterrorism overseas. The Federal Aviation Administration 
is the lead for hijackings, but only after the plane doors have 
been closed.
    We have had presidential directives which have placed 
substantial responsibility within the NSC. With regard to the 
announcement last night that the President made, I share your 
enthusiasm not only for the move, but for the gentleman who 
will be taking this position. Obviously, we need to know more 
about what the President has in mind there. I would agree with 
you, without having talked to him about it or thought it 
through, that we are going to need some legislation. I am not 
sure at all that the new person, Governor Ridge, will have the 
authority he needs in terms of the reorganization problem that 
we have got or the ability to reprioritize budget matters and 
things of that nature. So I think we have got to move forward 
on it.
    One approach would be to put the right tools in the hands 
of the President and let him decide what to do and when to do 
it. I think it is important that we not tie the President's 
hands and decide up here unilaterally, precisely in great 
detail, exactly what should and should not be done. I think we 
need to work together with the President and take the lessons 
put forth by the commissions, the GAO, the Department of 
Justice, and FEMA, and apply them.
    One way to do this would be to reauthorize the 
Reorganization Act, which sunsetted in 1987. That act allowed 
expedited consideration for any presidential proposals to 
reorganize Federal agencies and would be a foundation upon 
which a new and effective strategy for defeating terrorists 
could be built. It is just another idea to go along with the 
very good ones that you have set forth, Mr. Chairman. So I 
think that we are now on the right track, and I think there is 
going to be a lot of good come out of this, and I think that 
what we are doing here today is a part of that.
    Thank you very much.
    Chairman Lieberman. Thank you, Senator Thompson.
    Senator Cleland.

              OPENING STATEMENT OF SENATOR CLELAND

    Senator Cleland. Yes, sir. Thank you, Mr. Chairman. I thank 
our panelists, especially our dear former colleagues here.
    A W.C. Fields' quote comes to mind that we have got to take 
the bull by the tail and face the situation. [Laughter.]
    I think we have to face the situation that the whole 
counterterrorism, the homeland defense issue was very much on 
the back burner, uncoordinated, buried deep in the bowels of 
the Pentagon and the Justice Department until Tuesday. Now what 
do we do? Mr. Chairman, I look forward to our panelists as to 
how we move forward.
    I do know that we need to coordinate these more than 40 
different offices that deal with homeland defense better. I 
just wonder how our panelists feel about the President's 
decision last night, if they embrace that or not. So I am 
looking forward to our panelists, Mr. Chairman.
    Chairman Lieberman. Thank you, Senator Cleland.
    Let us go now to Senator Rudman and Senator Hart. I would 
say, very briefly, that the two of you proved that there are 
ample opportunities for public service after one leaves the 
Senate, and the two of you have just done admirably in that 
regard.
    I think I am just going to go without listing your 
credentials. You are both very respected spokespeople on 
matters of foreign affairs, defense, and intelligence and have 
been leaders for a long time.
    Senator Rudman, we are pleased to hear from you now.

 TESTIMONY OF HON. WARREN B. RUDMAN, CO-CHAIR, U.S. COMMISSION 
               ON NATIONAL SECURITY/21ST CENTURY

    Senator Rudman. Thank you very much, Mr. Chairman and 
Senator Cleland. It is an honor to appear before this Committee 
which I served on for my entire service in the Senate, sitting 
in this room.
    Chairman Lieberman. Welcome home.
    Senator Rudman. There are many questions that you have, and 
I am going to try to brief and direct in my answers to 
summarize on behalf of our commission what we did, and Senator 
Hart, of course, will do that as well.
    A little background. This commission came about after a 
conversation between former Speaker Newt Gingrich and President 
William Clinton, in which they commiserated about the fact that 
there had been no ongoing study of America's national security 
since 1947, which resulted in massive reorganizations of our 
entire government. Thus, our commission was established. There 
has been some misunderstanding, our commission, as opposed to 
the other commissions, did not start out to study terrorism per 
se.
    This report, which you have seen, covers the entire panoply 
of the Federal Government security apparatus: State, Treasury, 
trade, education, intelligence, and law enforcement. The 
curious thing is that the 14 people--seven Democrats and seven 
Republicans--who worked for over 3 years on this, at the 
conclusion, unanimously came to the consensus that the single 
most important issue facing America was how to deal with 
domestic terrorism. So that is why we are here today. It became 
Chapter 1 of our report which deals with security, in general.
    Our deliberations resulted in something rare in Washington: 
A consensus amongst 14 people of divergent political views and 
ideologies who came together on the 50 recommendations that are 
contained in the report, seven of which deal with what we are 
talking about here this morning.
    We reached a consensus that an attack on the domestic 
homeland was not a question of if, but a question of when, and 
we reached the consensus that the Nation was, and is, largely 
unprepared to respond here at home to such an attack. More 
important, I believe, is that the commission also reached a 
consensus on the core elements of a road map to allow the 
Nation to move forward, and we were unanimous on that score as 
well.
    We proposed and still believe that any solution to this 
problem must address issues of strategy. It must address issues 
of Federal, State, and local organization and cooperation, and 
it must address issues of capacity and cooperation. In general, 
we said that the United States must replace a fractured ad hoc 
approach to homeland security with a sustained focused 
approach, emphasize integration of existing agencies and 
departments, rather than wholesale invention, and recapitalize 
our existing assets and capabilities rather than try to create 
redundancy.
    Is this plan ambitious? It is, without question. Is it 
going to take the patience of the American people? Certainly. 
Is it going to require a whole new way of thinking about our 
national security? Absolutely. We believe that given the 
evidence that we heard--all over the world we heard this 
evidence--the history of our government and the resources 
available, the best way we could help would be to come up not 
with a philosophical approach, but with a series of specific 
recommendations for the Executive and Legislative Branches of 
government. After all, the charter of this commission, founded 
by the Congress in 1998, was to give the incoming 
administration in 2001 and the incoming Congress in 2001 a road 
map to America's national security. That is what we have tried 
to do.
    The first step, and I will go through a number of steps, is 
for the President of the United States to declare unequivocally 
that homeland security is the primary responsibility of our 
national strategy, not a peripheral responsibility.
    Mr. Chairman, I think that happened last night, and I want 
to just depart from the previous prepared remarks, just to give 
you a few thoughts on that, which I know you have mentioned, 
and Senator Cleland has mentioned you would be interested in.
    The President has moved quickly to establish an office of 
homeland security. We do not know yet the details of the 
office, but would appear to be what is generally called the 
czar approach. We have had drug czars and others. Why we have 
ever picked that particular name, I am not sure, but that is 
the one we tend to use. It is a very good method to bring 
attention to a recognized problem. Moreover, it is a very good 
way in time of crisis to encourage improved coordination 
between disparate agencies which, in normal times, tend to 
pursue their own bureaucratic purposes.
    We applaud the President's initiative and heartily endorse 
Governor Ridge, who is known to all of us. It is a great 
choice. For an enduring solution to what we feel certain will 
be a long-term problem, we believe the President must move 
beyond this White House office and establish a major department 
with homeland security, with a seat at the cabinet table, as 
its singular mission.
    We believe that without budget authority, command 
authority, accountability, and responsibility to the Congress 
and to the President, nothing in this government ever works 
very well, but we applaud this step, and we believe that the 
Congress and the President can build on it.
    The President should propose, and the Congress should agree 
to create a new National Homeland Security Agency. The nucleus 
of this agency would be the current Federal Emergency 
Management Agency, the nucleus. While retaining its 10 regional 
offices, the new agency would have the responsibility for the 
nationwide planning and coordination and integration of the 
various government activities that now involve homeland 
security. I believe there are about 51 of those activities in 
various places, and we believe the Director should be a member 
of the cabinet and a statutory adviser to the National Security 
Council.
    Third, the President should propose, and the Congress 
should agree, to transfer the Customs Service to the Border 
Patrol and the Coast Guard to this new agency. This transfer 
would be for common purpose coordination, not bureaucratic 
consolidation. Each of these entities would retain their own 
distinct identities, structures, and internal operating 
procedures. They would just be located in another cabinet 
department. If you look at the details of the report, you will 
see the logic of why those three agencies, in particular, with 
FEMA are to be in one place.
    I want to stress that under our plan, each of these three 
entities would receive long overdue increases in resources. Let 
me just summarize that shortly. We were shocked to hear that 
the Customs Service currently has the capacity to inspect only 
1 or 2 percent of all shipments received from overseas and our 
country. This has to change. We were shocked to learn that the 
cutter fleet of America's Coast Guard is older than 39 of the 
41 world major naval fleets. That has to change.
    We were somewhat disappointed to hear the continuing 
challenges, the horror stories facing the U.S. Border Patrol. 
Consider this: Each day 1.3 million people cross our borders; 
340,000 vehicles cross our borders; and 58,000 containers 
arrive at America's seaports. These figures are expected to 
double by 2005.
    Mr. Chairman, this is not a case of wanting to create a 
political carrot to entice people to sign on to a reform 
proposal. It is a matter of creating the political will to do 
what we should have done a very long time ago.
    Fourth, the President should ensure that the National 
Intelligence Council include an analysis of homeland security 
and asymmetric threats, particularly those involving 
infrastructure and information technology. That portfolio 
should be assigned full time to a national intelligence officer 
and the national intelligence estimate, the so-called NIE, 
should be produced on these threats.
    Fifth, the President should propose to Congress the 
establishment of an Assistant Secretary of Defense for Homeland 
Security within the Office of Security of Defense and reporting 
directly to the Secretary. Along similar lines, we propose that 
the existing Joint Forces Command and Joint Task Force for 
Civil Support be broadened and strengthened. For those who may 
not be familiar with those two organizations, these commands 
are DOD's current mechanisms for planning and dealing with 
homeland attacks.
    Sixth, it is time to emphasize the ``national'' in National 
Guard. Specifically, the Secretary of Defense, at the 
President's direction, should make homeland security a primary 
mission of the National Guard, and the Guard should be 
organized, properly trained and fully equipped to undertake the 
mission. However, these requirements, we make clear, should be 
in addition to, not substitutes for, the current state of 
readiness for sustained combat overseas. Parenthetically, Mr. 
Chairman, to use the vernacular of the military, the National 
Guard is forward deployed in the homeland. It is where we would 
need it, in time of crisis.
    Finally, we recommend, Mr. Chairman, and I say this with 
some hesitancy, but directness, that the Congress reevaluates 
its organizational approach to issues of homeland security, 
counterterrorism and protection of information security. 
Currently, the Congress has roughly two dozen committees 
addressing these issues in a very scattershot way. We think 
there ought to be two select committees, one in the House and 
one in the Senate, and we believe that the members of those 
committees ought to be carefully selected for their expertise 
in foreign policy, defense, intelligence, law enforcement, and 
appropriations.
    Mr. Chairman, as I said, I wanted to keep these remarks 
brief. Let me just say that many of the commentators in recent 
days have tended to portray the types of changes that we talk 
about here this morning as a zero sum game. They argue that 
doing more here at home means that we will have to do less 
overseas, that homeland is a code for a retreat to 
unilateralism or that doing more on defense means less for 
weapons and missiles.
    The commission did not and does not subscribe to that point 
of view. We firmly believe that an engaged, enlightened, and 
unilateral foreign policy, and defense policy is still 
America's first line of defense. America not only has interests 
in the rest of the world, it has obligations. As we said in the 
report, to shield America from the world out of fear of 
terrorism is, in large part, to do the terrorists' work for 
them, but to continue business as usual is irresponsible.
    We think that, ultimately, our challenge is to balance the 
openness and generosity of the American spirit with the 
security and well-being of the American people. Essentially, we 
address the issues that are the hallmarks of homeland security. 
They are to prevent, to protect, and to respond.
    As someone who has had the privilege to serve this country 
on both the field of battle and in the halls of this Capitol, I 
implore you to take action on the recommendations of these 
panels that sit before you today. You have an obligation and a 
duty to the American people to do no less.
    Chairman Lieberman. Thank you, Senator Rudman, for that 
excellent statement. I appreciate it very much.
    Senator Hart.

 TESTIMONY OF HON. GARY HART,\1\ CO-CHAIR, U.S. COMMISSION ON 
                 NATIONAL SECURITY/21ST CENTURY

    Senator Hart. Mr. Chairman, thank you and Members of the 
Committee for holding these hearings and for the opportunity 
for us to appear here.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hart appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    ``Americans will become increasingly vulnerable to hostile 
attack on our homeland, and our military superiority will not 
entirely protect us. Americans will likely die on American 
soil, possibly in large numbers.'' This was our first 
conclusion of our commission after almost a year of 
investigation of what we called the ``New World Coming,'' which 
we described in our first public report. That conclusion was 
delivered September 15, 1999, almost exactly 2 years to the day 
before our prediction came true.
    ``The United States is today very poorly organized to 
design and implement any comprehensive strategy to protect the 
homeland,'' our commission also concluded in its final public 
report on January 31, 2001. Eight months later, regrettably, 
that same assessment is true. In light of the dark, satanic 
events of last week, further delay in creating an effective 
national homeland defense capacity would be nothing less than a 
massive breach of the public trust and an act of national 
folly.
    As Senator Rudman has pointed out, our commission was 
appointed to conduct the most comprehensive review of U.S. 
national security since 1947. The commissions of that era, 
post-World War II, pre-Cold War, ended in creating a statutory 
base for the conduct of the Cold War and created, among other 
things, the Department of Defense, the Central Intelligence 
Agency, the U.S. Air Force, and a massive overhaul of this 
Nation's defense structures.
    Those of us on this commission represent almost 300-person-
years of public service, almost all of that in the field of 
national security and foreign policy. As Senator Rudman has 
pointed out, although we debated issues such as the structure 
of a homeland defense agency at great length, in the final 
analysis we were all unanimous.
    Senator Rudman has more than adequately summarized the 
seven conclusions that relate specifically to the creation of 
what President Bush fortuitously last night called a new 
Homeland Security Office. What we are really here now to 
discuss, that decision by the executive having been made, is 
what the nature of that office or agency should be.
    As Senator Rudman has pointed out, we particularly called 
attention to the role of Congress in this effort and would do 
so again today. The events of the last 10 days--and the 
President's speech last night--have presented to the Congress 
both an opportunity and an obligation to help the President put 
form, structure, and content on what was essentially a two-line 
commitment.
    We believe this should be a statutory agency. We believe 
this agency should have budget authority. We believe it should 
consolidate, under one authority, one civilian authority who 
has the accountability to the President and the American people 
for homeland security.
    Our commission strongly believes that any lesser or more 
tenuous solution will merely perpetuate bureaucratic confusion 
and diffusion of responsibility. No homeland czar can possibly 
hope to coordinate the almost hopeless dispersal of authority 
that currently characterizes the 40 or 50 agencies or elements 
of agencies with some piece of responsibility for protecting 
our homeland.
    May I recall to you when we had an energy crisis in the 
1970's, a czar for energy was created. It happened to be a 
former governor of my State of Colorado. It turned out to be 
obvious within a matter of months that a czar approach to the 
issues of energy security in this country was not going to 
work. And whether you agree with the result or not, we ended up 
with the Department of Energy.
    We have heard, particularly before a week ago Tuesday, that 
Washington bureaucracy will not permit our solution to be 
adopted. Mr. Chairman, I would like to hear a cabinet officer 
or bureau head in this government make that argument today. I 
would like to hear the Attorney General or the Secretary of 
Transportation or the Secretary of the Treasury explain to the 
President, and the American people, and the Congress why it is 
more important to keep that piece of bureaucratic turf in that 
department than to protect the people of the United States. 
Bureaucracy matters nothing right now. The lives and safety of 
the American people are at stake.
    Of those who have taken the trouble to read our 
recommendations and the reasons for them, some have said that 
we have gone too far in creating what some have called an 
``Interior Ministry,'' a rather ominous phrase. Others say that 
we have not gone far enough to incorporate intelligence, 
counterintelligence, and military components. There are 
thoroughly debated reasons of constitutional principle and 
practical effectiveness that caused us to strike the balance we 
did.
    The Homeland Security Agency should not have police or 
military authority, it should not be an intelligence collection 
agency or have responsibility for counterterrorism. It should 
not be a military agency. It should be the central coordinating 
mechanism for anticipating, preventing, and responding to 
attacks on our homeland.
    The executive director of our commission, General Charles 
Boyd, who is here with us today, has, I think, made a very apt 
analogy to the situation. We are now, where homeland security 
is concerned, as if we were in the situation before we had a 
Department of Defense and a Secretary of Defense. Those who 
argue against an approach similar to ours would essentially be 
saying the Army should be in one department, the Navy should be 
in another department, the Air Force in another department, and 
by the way, we will have a coordinator of those services 
somewhere in the White House.
    We think the logic of our circumstances require a statutory 
agency under the accountability of one individual. This is a 
daunting task, but, Mr. Chairman, we owe it to our children to 
begin. It would be a mistake of historic proportions to believe 
that protection must await retribution, that prevention of the 
next attack must await punishment for the last. We can, and 
must, do both simultaneously. We do not know when we will be 
held accountable for the next attack on this country. I 
believe, personally, it will be sooner rather than later, and 
we are still not prepared.
    Chairman Lieberman. Thank you, Senator Hart, very much for 
very strong testimony.
    Governor Gilmore, good morning and welcome. I know you had 
some difficulty with flight arrangements getting here, but we 
are very grateful for your persistence.
    For the record, Governor Jim Gilmore is, of course, 
Virginia's chief executive and also vice chair of the National 
Governor's Association, an Army veteran. He is here in his 
current capacity as the Chairman of the Advisory Panel to 
Assess Domestic Response Capabilities for Terrorism Involving 
Weapons of Mass Destruction.
    Welcome, Governor.

  TESTIMONY OF HON. JAMES S. GILMORE, III,\1\ GOVERNOR OF THE 
COMMONWEALTH OF VIRGINIA AND CHAIRMAN, ADVISORY PANEL TO ASSESS 
 THE CAPABILITIES FOR DOMESTIC RESPONSE TO TERRORISM INVOLVING 
                  WEAPONS OF MASS DESTRUCTION

    Governor Gilmore. Thank you, Senator Lieberman, and also, 
Senator Cleland, of course who is here, and other Members, for 
the record. Thank you for inviting me to discuss 
recommendations of the Advisory Panel to Assess Domestic 
Response Capabilities for Terrorism Involving Weapons of Mass 
Destruction and local response, a national panel that was 
established by the Congress in 1999. We have a statutory duty 
to report to the Congress and to the President.
---------------------------------------------------------------------------
    \1\ The prepared statement of Govenor Gilmore appears in the 
Appendix on page 41.
---------------------------------------------------------------------------
    I have served as chairman of this advisory panel, Senator 
Lieberman, and it has been my privilege to work with experts in 
a broad range of fields, many from outside of the Washington 
Beltway, including current and former Federal, State and local 
officials, specialists in terrorism, such as L. Paul Bremer who 
is here to speak in just a few moments who has chaired his own 
commission and has been a faithful member of our commission, 
people from the intelligence community, the military, law 
enforcement, emergency management, fire services, health and 
medicine, and public health. And this is the unique quality of 
the congressional panel that was assembled. It includes the 
local and State responders as a primary force and input into 
our panel which I think makes us unique and different.
    I might take a moment to say that one of our panel members, 
Ray Downey, the deputy fire chief for the City of New York, is 
listed as missing, as he was trying to help people in the City 
of New York at the World Trade Center, when he was lost, 
together with about 300 other firefighters in the City of New 
York, and we will miss him on our panel.
    Our panel has had time. We have been working for almost 3 
years. We have been able to deliberate quietly and without any 
type of pressure of crisis. For many generations to come, 
Senators, September 11, 2001, is a day that is going to stand 
out in the history of the United States, and indeed I think the 
entire world, as the day that the tyranny of terrorism attacked 
American freedom.
    The criminals who committed these acts on the people of the 
United States in New York and in Virginia sought a decisive 
strike that was designed to remake the world and the post-Cold 
War period. Sooner or later those who inflicted these injuries 
will feel the full weight of justice and the free world's 
combined efforts to hold them responsible, and I believe no one 
can exceed the President's eloquence in this matter, as we 
heard last night.
    This brings me quickly, Senator, to the work of the 
Advisory Panel and the work that lies ahead for the Congress, 
the Executive Branch, and for our States and for our 
communities. To date, our panel has issued over 50 specific 
recommendations in two reports. The first report was issued in 
December 1999 and the second was issued in December of the year 
2000.
    In quick summary, the first report was devoted to the 
assessment of the threat, concern over the issue of who was to 
be in charge of any particular response effort, and an 
increased concern, particularly to recognize that weapons of 
mass destruction, while less probable, could not be dismissed, 
but that in the meanwhile, that a conventional attack was 
nearly inevitable. This was our conclusion in December 1999.
    The next report, in December 2000, recognized that there 
was not a national strategy, that there was an absolute 
essential to have a national strategy, including State and 
local people, and to make sure that there was, in fact, a 
separate approach on response itself, particularly emphasizing 
State and local people in combination with FEMA and other 
Federal agencies, and of course recommendations for enhancing 
and improving our intelligence capabilities.
    I want to focus your attention today, Senator, on two 
central recommendations concerning the role of government 
organization and inner-agency coordination in this war against 
terrorism.
    In our December 2000 report, we proposed at that time the 
statutory creation of a new national office for combatting 
terrorism, to coordinate national terrorism policy and 
preparedness in the Executive Branch located in the White 
House. The President has done this last night.
    Our recommendation was that the director of this office 
should be a high-ranking official appointed by the President; 
that, foremost, that the office should have the responsibility 
to develop a comprehensive national strategy to be approved by 
the President. The issue is the need for the central direction 
on this issue among the different complex, solid, different 
issues, including budgetary concerns, a need for the 
development of the national strategy, as the President said 
last night, but including Federal, as the President said, State 
and local response. Otherwise every agency up and down the 
line, vertically and horizontally, will assert its own 
authority in, of course, an uncoordinated way.
    Senator this is an important distinction here with our 
panel and others. Our proposal is an office located in the 
White House reporting directly to the President of the United 
States, not a separate homeland agency that competes against 
other agencies or even other cabinet secretaries. Instead, this 
office will invoke the direct authority of the President to 
coordinate various agencies, receive sensitive intelligence and 
military information, and deal directly with Congress and State 
and local governments on both domestic and international 
counterterrorism programs. This defines the difference between 
our panel and that of Hart-Rudman.
    The central point is this: America needs a White House-
level office for a White House-level crisis, and that is the 
plan that the President adopted last night.
    Senator the Annual Report to Congress on Combatting 
Terrorism of July 2001 points out that we spend about $10.3 
billion per year now. Approximately 8 percent of that goes to 
preparedness and response. About $300 million, only, is 
designated for State and local government concerns.
    Our third report, which is due December 2001, will now be 
accelerated in an executive summary, although completed on time 
in December 2001. We propose to accelerate our meetings and to 
accelerate our report for the benefit of the Congress to which 
we report and the President. We will, at that time, define five 
areas of further study in our third year: Health and medical, 
use of the military, cyber security, local and State response, 
and border security, as well as filling out some of the 
additional points on intelligence and other matters.
    The second point that I wish to address to you this 
morning, and that is the area of border security as a prime 
example of the need for White House coordination. As you know, 
on September 11 hijackers entered the United States. The 
question is how did they get in. Senator, as was previously 
read, we have 100,000 miles of national coastline; 2,000 miles 
of land bordered with Mexico; 4,000 miles with Canada; 500 
million people cross our borders annually; 127 million 
automobiles cross annually; 11.5 million truck crossings 
annually; 2.1 million rail cars; 200,000 ships annually dock; 
and 5.8 million containers enter annually, less than 3 percent 
are adequately inspected.
    The answer calls for interagency coordination. If America 
is to be secure, we must coordinate immigration enforcement and 
border securities at all levels of entry in the United States, 
air, sea, and land. It will require unprecedented coordination 
between the appropriate agencies.
    Our report on this one single issue of the five we will 
address in our new report will propose that border and 
immigration agencies all be included in intelligence collection 
analysis and dissemination process, that there be an 
intergovernmental border advisory group within the Office of 
Combatting Terrorism, a coordinated plan for research and 
development, particularly with sensors and warning systems, 
trusted shipper's programs to begin to address the issue of 
containers, and full coordination with Mexico and Canada, and 
we will have identical and more comprehensive detail in the 
other four areas as well, as we conclude our report back to the 
Congress and to the President.
    Senator we must start preparing the Nation to defend 
freedom within our borders today. There is certainly not a 
moment to spare. The President and the Congress face solemn 
decisions about how to proceed, and there is certainly little 
time for deliberation. This is not a partisan political issue. 
It transcends partisanship. It is about the preservation of 
freedom and the American way of life. The American people 
deserve to be prepared, and they deserve to be prepared now. We 
must take bold action to defend our freedom at home and abroad.
    Thank you very much.
    Chairman Lieberman. Thank you, Governor. We appreciate your 
service and your testimony. I look forward to a question and 
answer period.
    Our next witness is Ambassador Paul Bremer, formerly 
Ambassador-at-Large for Counterterrorism in the Reagan and 
first Bush administrations. He is clearly one of our Nation's 
leading experts on terrorism and, in fact, as I mentioned 
earlier, chaired the National Commission on Terrorism. He was 
also a member of the Gilmore Commission.
    Ambassador Bremer, thanks for being here, and I look 
forward to your testimony.

  TESTIMONY OF HON. L. PAUL BREMER, III, FORMER AMBASSADOR-AT-
   LARGE FOR COUNTER-TERRORISM, U.S. DEPARTMENT OF STATE AND 
MEMBER, ADVISORY PANEL TO ASSESS THE CAPABILITIES FOR DOMESTIC 
  RESPONSE TO TERRORISM INVOLVING WEAPONS OF MASS DESTRUCTION

    Mr. Bremer. Senator, I will be brief because the governor 
has summarized our report. I am just going to make two or three 
points.
    I think there is a lot of value in both of these panels. 
These are not mutually exclusive. There are some things that 
can be borrowed from one or the other. There is a fundamental 
difference on the structure. And I think one of the reasons 
there is a difference on the structure has to do with one of 
the most important trends in terrorism, which we saw 
dramatically last week, and that is the fading distinction 
between domestic and international terrorism.
     As you said in your opening statement, Mr. Chairman, since 
1985, our government, has been divided between the State 
Department being responsible for international terrorism and 
the Justice Department being responsible for what we call 
domestic terrorism. This is a nice distinction. It just does 
not happen to be one that terrorists follow, as we saw last 
week. And one of the places where this is the most dramatic the 
governor has just referred to, and that is in the question of 
immigration and border controls.
    The State Department is responsible for issuing visas to 
people overseas, but it is the INS which is responsible for 
deciding whether somebody gets into the country and then 
monitoring, to the extent the INS can, whether that person 
remains in their visa status in the United States. The 
intelligence involved in this problem of immigration control is 
not seamless; that is to say, there are lots of databases 
around, they are not all interactive.
    For example, the consular officer who issues a visa, until 
today, does not have access to important FBI databases dealing 
with people who are suspected criminals. There is legislation 
in the bill which was sent up yesterday, by the Attorney 
General, does try to deal with this issue, but it is just an 
example of the fact that you cannot make a distinction any 
longer between international and domestic terrorism.
    Indeed, I think that is one of the problems with trying to 
set up an agency, one of the substantive problems of trying to 
set up an agency whose role is essentially just to look at 
domestic terrorism. You cannot do it. You cannot cut it that 
way any more. And as our report pointed out, it is very 
important to get a seamless connection between intelligence 
collected by various agencies overseas and intelligence 
collected in the United States.
    A second point I would make is we look very hard at the 
necessary attributes for the office, whatever the office is, 
whether it is the one that the distinguished gentleman on 
Rudman-Hart proposed or one we did or what the President came 
up with.
    First of all, I agree with you, Mr. Chairman. I think it 
should be established by statute. I think it is important for 
two reasons. It is important for the political reason that the 
Congress should embrace whatever the new reorganization is 
going to be. Second, it is important because of the overriding 
importance that both of our panels stressed on budget.
    We looked at the attributes of what a new office should 
have, and in my view came up with four. The new office should 
have political accountability; that is to say, the person in 
charge should be appointed and given the advice and consent of 
the Senate. He should be responsible to the American people 
through the Senate. We said that should also be at the cabinet 
level, which is the second attribute. The person in charge of 
this office should have access and visibility.
    Third, that office must have budgetary authority, as both 
of our panels have stressed. In our view, it is important for 
this office to have an ability to design a national strategy 
and then to certify whether various departments of the U.S. 
Government programs are consistent with the President's 
strategy, and when they are not, to decertify those budget 
requests as, indeed, has been the case with the Office of 
National Drug Control for the last decade.
    Finally, it is important, we thought, for that office to 
have a certain degree of autonomy and neutrality, not to be 
seen as an active member of the bureaucratic fights which are 
so familiar to all of us here inside the Beltway. These fights 
are almost a necessary part of life in Washington, but in this 
particular case we thought you need to rise above it.
    The final point I would make, Senator, is a political 
point, even though I am not a politician. I have followed this 
subject now, on and off, for almost 30 years. It is the case 
that over those 30 years attention to terrorism has been very 
episodic. In the wake of a terrorist attack, as we are now, 
there is a lot of attention. There are congressional hearings. 
There is a lot of stuff on television. There are interviews and 
articles. After a couple of months in the past, that attention 
span has gone away. The spotlight moves on to some other 
subject.
    One of the problems this country has had in coming up with 
a coherent counter-terrorist policy is precisely that we do not 
get sustained attention in a balanced way to this problem. I 
would urge this Committee and your colleagues in both Houses of 
Congress to work now with the administration and all of us in 
trying to keep a sustained attention. It does not mean we need 
hysteria. We do not need hysteria. As the President said last 
night, we need to get back to work. We need to show again the 
great, wonderful resilience of this society, but we need a 
sustained and balanced attention to this problem that is going 
to outlive the immediate emotions of this week.
    Thank you.
    Chairman Lieberman. Thanks, Ambassador Bremer. That was 
very helpful testimony.
    I think the last point you made is a critically important 
one about the attention to terrorism having been episodic over 
recent decades. When we talk now about a war on terrorism and 
talk as the President so eloquently did last night about this 
being a long, sustained struggle, that is what we are talking 
about.
    Part of the problem is the elusive nature of the enemy 
here. It is not as if we can say at any point, well, we have 
won one battle, but the enemy is still occupying Country A, and 
the war is not over until it ends. They blend into the 
darkness, the shadows. But if we are not persistent and do not 
break the episodic response, we will lower our guard again and 
once again be victims of attack. So I think your last point is 
a very important one, and it is part of why a permanent agency, 
however we decide to shape it, is critically important.
    Mr. Bremer. People ask how do you define victory? What is 
our goal? It seems to me our goal is to delegitimize terrorism. 
We will not, as you point out, ever capture all of the 
terrorists, but we can delegitimize the practice, and that is 
our goal.
    Chairman Lieberman. Thanks very much.
    Our final witness today is David Walker, Comptroller 
General of the United States, head of the General Accounting 
Office. He and his extraordinary staff are a constant source of 
good counsel for this Committee and Congress, generally, in 
making the government more efficient.
    Welcome, again, Mr. Walker. Thanks for your testimony.

TESTIMONY OF HON. DAVID M. WALKER,\1\ COMPTROLLER GENERAL, U.S. 
                   GENERAL ACCOUNTING OFFICE

    Mr. Walker. Thank you, Mr. Chairman. I appreciate the 
opportunity to be here today to discuss a framework for 
possibly addressing the need to enhance homeland security.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Walker appears in the Appendix on 
page 53.
---------------------------------------------------------------------------
    As Senator Thompson said, GAO's past and present strategic 
plan includesa number of key themes, one of which has been the 
changing nature of the security threats that this Nation faces 
in a post-Cold War environment.
    We have issued over 65 reports dealing with homeland 
security-related issues during the past 6 years, and we have 
issued three in the last 3 days, including this report, which 
is entitled combatting terrorism, selected challenges, and 
related recommendations. I might also add, for the record, that 
of the reports that we recently issued, we let the 
administration know about them at least 6 weeks ago and had an 
opportunity to be able to relook at them to consider 
classification and other factors before we released them this 
week, and we will continue to do that.
    According to a variety of U.S. intelligence assessments, 
the United States now confronts a range of increasingly diffuse 
threats that puts greater destructive power in the hands of 
small States, groups, and individuals, and threatens our values 
and way of life. GAO's work indicates that we face a range of 
challenges in this area that will have to involve many Federal 
agencies, as well as State and local governments, the private 
sector, and even private citizens. The Federal Government must 
address three fundamental needs.
    First, the government needs clearly defined and effective 
leadership with clear vision to develop and implement a 
homeland security strategy in coordination with all relevant 
partners, both foreign and domestic, and the ability to marshal 
the necessary resources to get the job done;
    Second, a national homeland security strategy should be 
developed based upon a comprehensive assessment of national 
threats and risks; and,
    Third, a large number of organizations will need to be 
involved in addressing homeland security. They need to have 
clearly articulated roles, responsibilities, and accountability 
mechanisms in order to get the job done.
    Crafting a strategy for homeland security involves reducing 
the risk, where possible; assessing the Nation's 
vulnerabilities; and identifying the critical infrastructure 
most in need of protection. To be comprehensive, the strategy 
should include steps to use intelligence assets and other means 
to identify attackers and prevent attacks before they occur, 
harden potential targets to minimize the damage from an attack, 
and effectively manage the consequences of the incident.
    In addition, the strategy should focus resources on the 
areas of greatest need and measure performance against 
specified goals and objectives. Because the plan will need to 
be executed nationally, the Federal Government can assign roles 
to Federal agencies once the strategy is developed, but also 
will need to develop coordinated partnerships with State and 
local governments, as well as with private and not-for-profit 
entities.
    Effective homeland security will require forming 
international partnerships to identify attackers, prevent 
attacks and retaliate if there are attacks. It will also 
require efforts by both the Executive and Legislative Branches 
of the Federal Government.
    As I mentioned, Mr. Chairman, just yesterday we issued this 
report which discusses challenges confronting policy makers on 
the war on terrorism and offers a series of recommendations. 
One of these recommendations is that the government needs a 
more clearly defined and effective leadership to develop a 
strategy for combatting terrorism and assuring the security of 
our homeland, to oversee development of a new national threat 
and risk assessment, and to coordinate implementation among 
Federal agencies.
    Similar leadership is also needed for the broader issue of 
homeland security. President Bush, as has been noted, announced 
the creation of a new cabinet-level office of homeland security 
and the nomination of Governor Tom Ridge to head that office. 
Important details have not been provided. It is important to 
understand what the nature and extent of this office will be, 
what control it will have over resources, what responsibilities 
it will have with regard to the determination and the 
implementation of the strategy, whether or not this will be a 
statutory position, whether or not this will be a term 
appointment, and there are a variety of questions that we 
believe are important that the Congress needs to ask in order 
to make sure that, in substance, this can be an effective 
approach.
    I think the fact of the matter is that whether we end up 
having a particular vertical silo or a department agency deal 
with this or whether you take a horizontal approach because we 
believe this is a horizontal issue, you will never be able to 
combine all of the different entities that are going to have to 
address this issue. In fact, as has been mentioned, there has 
not been a recommendation to combine the military elements, the 
law-enforcement elements, the intelligence elements, and 
certain other elements.
    Therefore you need to consider whether or not there should 
be some combination, but in any event, there is going to have 
to be coordination across a number of boundaries, across a 
number of silos, both foreign and domestic, not just at the 
Federal Government level, but also State and local, the not-
for-profit and the private sector because, after all, the 
private sector owns a lot of the critical infrastructure that 
is exposed.
    The United States does not currently have a national threat 
and risk-assessment mechanism to guide Federal programs for 
homeland security. Given the tragic events of Tuesday, 
September 11, a comprehensive national threat and risk 
assessment that addresses all threats has become an urgent 
need.
    In addition, as this report notes, neither the Executive 
Branch nor the Congress is well-organized to address this 
issue.
    In my statement, Mr. Chairman, I summarize a number of 
areas where GAO has done work relating to these issues, 
combatting terrorism, aviation security, cyber security, 
international crime control, public health, a variety of areas.
    Finally, let me note that we believe that there are four 
key questions that need to be addressed in connection with this 
issue, as noted on this chart:\1\ (1) What are our vision and 
our national objectives to make the homeland more secure? (2) 
What essential elements should comprise the government's 
strategy for homelansecurity? (3) How should the executive 
branch and the Congress be organized to address homeland 
security issues? and (4) How should we assess the effectiveness 
of any homeland security strategy implementation to address the 
spectrum of threats?
---------------------------------------------------------------------------
    \1\ Chart referred to appears in the Appendix on page 64.
---------------------------------------------------------------------------
    As you might imagine, Mr. Chairman, homeland security 
issues are now at the top of the national agenda as a result of 
last week's tragic events. Obviously, our work has not been 
able to be updated to reflect all of the actions that the 
administration has taken in the last 2 weeks. We expect that at 
some point in time we will be asked to do so. We stand ready to 
continue to assist this Committee and the Congress in 
addressing homeland security and a range of other issues.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thank you, Mr. Walker. Thank you all 
for your very direct and relevant testimony.
    Again, I want to express my regrets that the other Members 
of the Committee are not here, and I know it is because both 
parties have chosen to hold caucuses this morning, so hopefully 
as they end, they will be here. But for better or worse, I have 
a lot of questions that I want to ask all of you, and I am sure 
my colleagues will review the record.
    Let me begin, before we get to the discussion about which 
is the appropriate response structure for the Congress to 
choose, to ask you to talk just a bit more about what we mean 
by ``homeland defense.'' And I am just going to throw something 
out and ask you all to put some more leaves on the tree here.
    I take it that what we mean is taking efforts to prevent or 
secure potential targets of terrorist or other enemy attack on 
the homeland, and then if they, God forbid, occur, to be 
certain that we are prepared to react quickly and 
comprehensively in a way that diminishes human suffering. But I 
wonder if you could just go through this a little bit in terms 
of what you saw, what you learned and the considerable work you 
did, to help build a record, but also help inform the public as 
to what we are actually talking about here when we say 
``homeland defense.''
    Senator Rudman, you want to begin?
    Senator Rudman. I will be pleased to. I think probably all 
of us would agree on this at this panel. We have all determined 
that there are major threats out there. We define the threats 
as weapons of mass destruction, and we specifically referred to 
weapons of mass disruption, which is what we saw on September 
11.
    We must look at the three things with which the government 
has to organize itself in order to deal with that. One is to 
prevent, if possible. The second is to protect. And the third 
is to respond. And that is a Federal, State, local 
responsibility, particularly the response. Obviously, the most 
important one, in terms if you could make it work, would be the 
prevention.
    But I can tell you, having served, as you know, for many 
years on the Senate Intelligence Committee, having chaired the 
President's Foreign Intelligence Advisory Board for a long 
time, I have to tell you, Senator Lieberman, and I wish more 
people would be saying it, we should not let the American 
people think that intelligence, no matter how good, is ever 
going to be good enough to prevent all of these things from 
happening.
    Historically, intelligence agencies throughout the world, 
going back to the late 1800's, are very good at assessing 
capabilities and threats. They have been very poor at figuring 
out people's intentions. If they were good at figuring out 
intentions, even though they knew what the threat was, we would 
not have had Pearl Harbor, we would not have had the Battle of 
the Bulge, and Saddam Hussein would not have got into Kuwait, 
because we had the basic intelligence. We did not know what the 
intentions were.
    So we talk about prevention, we talk about intelligence, 
and Ambassador Bremer is quite right, we leave most of those 
activities where they are now. They should not be transferred. 
When we talk about prevention, a lot of that is intelligence, 
but a lot of it has to do with the kind of physical security 
that we have seen here in Washington over the last few years, 
and which unfortunately, we will probably be seeing more of 
around the country. That will be an inconvenience, but I do not 
think a loss of freedom. It will be an inconvenience.
    When we talk about response, we are talking about what I 
think Governor Gilmore has very eloquently laid out, this 
response depends heavily on local and State organizations, but 
you do not get these things to work right unless you do a lot 
of war gaming, if you will, long before these things happen.
    And one final thing. We have all admired Mayor Giuliani and 
Governor Pataki and the extraordinary job that they have done, 
and they have done it in an incredible city that has incredible 
resources of fire and police and emergency workers, and they 
have done war gaming in New York. I am aware of it. Their 
hospitals have gone through a number of exercises to deal with 
things. But the fact is that most places in our country do not 
have that capacity or that experience or have not exercised 
these things. And that is why the response side of it is so 
very important, and I think to some extent the Gilmore 
Commission properly, because of its charge, has dealt more 
directly with the response side of this than certainly we have. 
We have talked about it generally, but not with that kind of 
specificity.
    Chairman Lieberman. So one of the responsibilities of the 
agency or the office would be to aggressively see to it that 
local, State, and Federal agencies are better prepared than 
they are today to respond to such attacks.
    Senator Rudman. The major responsibility. In fact, it is 
being done now. It has been done by a number of cities with the 
aid of the military in some cases. One of the Marine divisions 
has done exercises in the Southwest in local communities to try 
to help them. But the fact is, it is sporadic. The resources 
have not been there, and we have got to get the resources out 
there.
    Let me just say one other thing, because I know we are 
going to get to it, and I would rather say it now and then let 
the other panel talk about it. This is an honest disagreement 
about organization between people of good will who respect what 
each other have done, and I admire what they have done, and it 
is a major contribution. But, I come at it differently based on 
my experience in government, and let me just lay it out in a 
way that I think everybody can understand. We have an 
intelligence czar in this country. He is called the Director of 
Central Intelligence, and everybody really believes that he 
runs intelligence in this government, but anybody on the 
Intelligence Committee can tell you that--and I cannot talk in 
detail because it is classified--but with a relatively small 
percentage of the intelligence budget being in the CIA. He is 
also dual-hatted. He is the Director of the CIA and he is 
Director of Central Intelligence, and some people do not 
understand the distinction. He has no control over the budget 
authority, the activities of the Defense Intelligence Agency. 
He has little control over the National Security Agency and 
many other defense agencies. And everyone who has studied it 
has said that it does not work as well as it should because he 
does not have the budget authority for the command or the 
control.
    We have come at this by saying that at least when it comes 
to our borders, Border Patrol, Customs, Coast Guard, and FEMA, 
because of what it does, which the Gilmore Commission has 
written about, we believe that that consolidation is important 
because it belongs more properly there than where it currently 
resides. We certainly are not talking about taking all of those 
other activities and moving them into this new agency, 
certainly not.
    But I want to answer your question more broadly than you 
asked it. Thank you very much.
    Chairman Lieberman. The kind of straight talk we have come 
to respect from you, Senator Rudman. Thank you.
    Senator Hart, before you answer, let me add an addendum to 
the question as you are prepared to answer in this way. But one 
of the things, I think, we are all feeling now after September 
11, as we saw the insanely inhumane acts of these terrorists, 
that one of the things we are not doing is thinking like they 
are. So as we talk about preparation, we have to really begin 
to think beyond what would be normally unthinkable for us, and 
one of the things that I think we have to think about, and I 
know that your commission looked at, is the possibility of a 
chemical or biological attack on the United States.
    So I wonder, as you give the answer to my initial question, 
whether you would give us some help in examples of what a 
homeland security agency would do to, in some sense prevent, 
but also protect and respond to such an attack if it ever 
occurred?
    Senator Hart. Well, obviously, such an agency would not 
itself combine either the military or the police functions of 
our country which are, as Governor Gilmore said, distributed on 
at least three levels of government. The direct response, 
counterterrorism, if you will, will come from the military and 
come from police agencies broadly defined. Senator Rudman 
accurately stated the way our commission broke down the threat. 
Try to find out who has evil intent against this country, who 
they are, how they are organized, how they are financed, and to 
the degree possible, what their intentions are. Now, their 
intentions are to do harm to the United States. What you try to 
find out is when and how, and that is the hardest part.
    Then if you get a sense, any sense that this threat is 
imminent, you try to stop it at the borders using all the 
assets that we have presently uncoordinated.
    Chairman Lieberman. It is a very important point. Excuse 
me. And that is why you focused on the coordination of the 
agencies that control access of people or goods into the United 
States.
    Senator Hart. And the reason why I stress, frankly, this 
problem with bureaucracy is that those agencies had a different 
mission. I mean they are where they are for a different 
purpose. Border Patrol is in Justice because it is a law 
enforcement agency. It is trying to prevent people from 
illegally entering the country. Customs is the Treasury because 
its purpose originally was to collect revenues. Coast Guard 
regulates incoming and outgoing seaborne traffic, makes rescues 
and so on, but that historic function was a Transportation 
function. Now these are front-line defense organizations. It 
frankly makes little sense for them to be where they are given 
their new responsibility. If we are in fact in war, and I 
believe we are, in a prolonged war, the nature and function of 
these agencies has changed. So the reason why they are where 
they are, frankly, makes very little sense any more, and to 
protect that bureaucratic turf, as I have indicated, under 
these circumstances is folly.
    If the bad guys get inside our country, then the prevent is 
to try to get them before they act, any way you can, and again, 
this is FBI, local law enforcement, every asset you have.
    And finally, if they act, to limit the damage, bringing 
together FEMA, State and local agencies, and so forth, under 
one command.
    I think what is important, on September 11 the nature of 
warfare changed. You have to get your mind around that concept, 
the nature of warfare changed. Now, it has been changing since 
the colonial area. The rise of guerilla warfare, that gave way 
to terrorism. In the Cold War we helped support some people 
that are now--these people that are now trying to kill us on 
the theory that the enemy of our enemy is our friend. But the 
nature of warfare has changed, and the distinction between war 
and crime has changed.
    Had there been a couple of fewer zeroes, had 50 or 60 
people been killed, it would have been a crime--6,000 to 7,000 
is war. Now, how many people have to die when it quits being 
crime and becomes war is a matter that theoreticians can 
debate. So what we are seeing now, what we have to think about 
differently is to bring assets of the military and policy 
together, and frankly, I think it will lead to the creation of 
an entirely new kind of paramilitary capability, something 
combining Delta Force, Rangers, Seals, some Special Forces of 
the Marines, and maybe they will not wear uniforms. But that is 
another whole subject.
    I think Senator Rudman, for the commission, has very 
accurately answered your original question.
    Chairman Lieberman. Do you want to take me up on the 
question of how, just to give an example, a homeland security 
agency would prevent or protect and respond regarding chemical 
or biological attack?
    Senator Hart. Try to find a way to inspect more than 2 or 3 
percent of the containers coming into the country. We had one 
scenario we discussed of a small tactical warhead, nuclear 
warhead, begin in one of the inspected sealed containers, 
shipped from Shanghai or from Singapore to Newark by way of the 
Chicago Rail Yards, off loaded in the Long Beach Port, put on a 
train. The train is reorganized in the Chicago yards, and you 
use global positioning triggering to blow up the nuclear 
warhead. Got to stop them at the borders I think.
    Now, you get the chemical, everybody knows chemical is hard 
to do. All the experts will tell you how hard it is to disperse 
the chemicals. Biological agents is a little bit different, and 
here, Ambassador Bremer is much more an authority than I and 
many members of the commission were, but I am told you can 
disperse smallpox virus from an aerosol can. now, how we are 
going to find every aerosol can coming into this country is 
going to be very, very tough.
    The only answer I can give you is do our very, very best to 
stop whatever the agent is at the border.
    Chairman Lieberman. Thank you. Governor Gilmore.
    Governor Gilmore. Senator Lieberman, there is so much to 
say, let me see if I can organize this in a way that is 
efficient. Our panel evaluated chemical, biological, nuclear, 
and radiological. These are the classic weapons of mass 
destruction. We evaluated them. We were absolutely unwilling to 
dismiss the possibility of those kinds of attacks, although we 
examined very closely the difficulty of delivery of those kinds 
of attacks. Yes, you can certainly deliver them in an aerosol 
can and so on like that, so we have focused our attention, for 
example, on the organization of health and medical, which will 
be discussed in our next report, so that physicians and the 
communities will begin to trigger those kinds of responses with 
the Center for Disease Control in a rapid way so that we can 
address those kinds of issues.
    Biological is an extremely serious matter, nuclear as well, 
although we considered them relatively unlikely, although 
catastrophic, and that is why we must address them. On the 
other hand, a conventional attack, such as the one we have just 
experienced we thought was highly likely, and that is why we 
call for a national strategy not a Federal strategy, a national 
strategy that absolutely incorporates in the locals and the 
States. They are the cops on the beat. They are the State 
troopers. They are the local physicians in the local clinics. 
They are the people in the hospitals that are going to be the 
responders who are going to see these issues first, and then 
allow a circumvention of the problem at the earliest possible 
moment.
    I know you are going to go to the issue of the national 
office and coordination types of issues. That has been the 
central point of our commission, and we are anxious to talk 
about that, but we have not discussed moving agencies because, 
as has been so widely discussed by everybody on this panel, it 
is fairly fruitless to move agencies. They are doing other 
things, too, besides terrorism. But aside from that, there are 
so many, that it requires not movement or restructure, but 
coordination, and we will be happy to return to that topic, but 
we will put it aside for just a moment so that I can be 
responsive to your question.
    The terrorist has the absolute advantage. He picks the time 
and the place and the manner of the attack. And the freer the 
society, the stronger the terrorist is. That is why America 
becomes the target of opportunity because we are the freest 
society in the world. So we have tried to analyze this into two 
pieces. Let me just take them up quickly.
    One is the issue of response. The Pentagon is a perfect 
example, and I am the Governor of the State in which the 
Pentagon is located. The minute that I saw the second plane go 
into the World Trade Center, we triggered the Emergency 
Operation Response System in Virginia immediately. What that 
does is automatically hooks into FEMA. This is a program that 
has been in place for years and years. And I have some good 
news for you, Senator--this is something that actually works, 
and it works very well. You do not get competition between FEMA 
and the local State authorities and localities. All of these 
professionals work well in coordination together, and they did 
in the Pentagon situation, as a matter of fact. I will not 
dwell on some of the other issues that I took specifically in 
Virginia, but I want to say that our panel has concluded that 
there is a system in place on the response already that works 
well, although there is, of course, much to do to prepare for 
that response. That is the office of the local and national 
coordinator dealing with all of these other types of issues.
    Chairman Lieberman. Let me just interrupt and punctuate 
that. I think it is an important point, because though all of 
the work that has been done here has shown inadequacies either 
in preparedness or in organization, perhaps it is saying the 
obvious, but it bears saying at a time when the American 
people's confidence has been shaken, there is a lot out there 
now in all these three categories--prevent, protect and 
respond--not as much as any of you or we would like, and not as 
well organized or coordinated as we would like, but I 
appreciate your example.
    Governor Gilmore. And it is working in New York also very, 
very well. Now, when you get over into the issue of chemical, 
biological, nuclear, and you go into a factor of 10 or 100 
times what we have already seen this week, then it requires a 
coordinator to do a national strategy to be prepared.
    But the final point that I would make is the one that you, 
I think, were approaching before you move onto your 
governmental structure issue, and that is the one of 
prevention. We have thoroughly addressed that issue as a matter 
of fact. We focused a great deal of attention on the 
intelligence community. I was in the intelligence community in 
the early 1970's as a low-level agent in the U.S. Army. I was 
trained on human intelligence. But it was very clear very 
quickly that the intelligence community was getting out of 
human intelligence in the early 1970's. We were moving more 
technologically into satellites, into your electronic 
intercept, which are doing extremely well. But we have been out 
of the human intelligence for a long time in its most complete 
and comprehensive fashion. We believe you must go back in. How 
can you determine intent of conspirators unless you make an 
effort to get into the conspiracy and find out the information 
from the inside. And there are many ways you can confirm the 
reliability of that kind of information. One of our points is 
we believe that the rule against the recruitment of terrorists 
and criminals overseas should be dropped. It is not fun to do 
business with bad guys, but bad guys are the ones that we have 
to try to stop. And as a result of that, you have to find--as I 
have said in local media and national media, the terrorists 
worldwide must wake up every morning wondering who in their 
organization is informing on them to the Central Intelligence 
Agency.
    Chairman Lieberman. Well said.
    Governor Gilmore. That is what we must do.
    And then third, we believe that there must be dissemination 
of intelligence up and down the line vertically, Federal, State 
and local. Unheard of in the intelligence business, but we 
believe, as a panel, that you can qualify people, that you can 
clear them, you can give them need-to-know, and you can have 
the same security that you would have inside any given agency, 
and we believe that begins to disseminate the information as 
necessary.
    In addition, of course, we focused a great deal of 
attention also in health and medical and on border. I 
emphasized border in my opening statement, because we believe 
that you can in fact apply all of these approaches in order to 
secure your border types of issues, and you must use the 
locals. When the terrorist picks the random target because of 
his advantage of secrecy and because of surprise, you have got 
to want to have the local policemen see it and be alert to 
looking for it before it occurs.
    Chairman Lieberman. Thank you. Ambassador Bremer.
    Mr. Bremer. I will just make two brief points. First, 
Senator Rudman is absolutely right about the problems of 
intelligence. I have been in the foreign affairs community for 
about 35 years now, and I know of no area where intelligence is 
more vital than in counterterrorism. If you do not have good 
intelligence, you do not have a policy. It does not matter what 
you have got on the borders or anywhere else, and that is 
really the answer to your question about how we stop the 
hypothetical example that Senator Hart talked about. The only 
way to stop that is to have good intelligence and the only way 
to get good intelligence, as the Governor points out, is to 
have human resources.
    So it will not stop it all. As Senator Rudman said, the 
American people have to be aware that there will be further 
attacks, but without intelligence, there is no point in talking 
about the rest of this stuff. You have to do that right.
    Second point, and here I may have a disagreement with my 
Chairman, in which case he can disavow me. I think in fact one 
of the bridging ideas between these two panels involves 
immigration and border control. I could imagine, myself, 
putting together an agency, where you could take Coast Guard, 
Customs, Border Patrol, and I would throw in INS, and make an 
agency that is called the Immigration and Border Control Agency 
or some other such thing, where you pull together these things 
that have indeed been sort of bureaucratically encrusted over 
the decades, in some cases, centuries, to take a really serious 
look at the problem of what kind of regulations there are for 
letting people and things into this country. And that would be 
consistent with our having a homeland agency, whatever it is 
going to be called that Governor Ridge is going to head. No 
contradiction there. So it is one of those ideas that maybe 
between the two panels one could find----
    Chairman Lieberman. Mr. Walker, from GAO's work, comment 
about what a homeland agency would actually do?
    Mr. Walker. Well, first, I think, one has to focus on what 
is homeland security, and then you have to look at how do you 
go about trying to achieve it. I think on the ``what'', in our 
view, it is a lot broader than many people have assumed. I mean 
you obviously have the traditional national defense issues that 
we have always dealt with, but you also have the nontraditional 
threats that both of these commissions have dealt with. The 
scope is very broad. It deals with transportation issues, as we 
saw last week very dramatically, financial issues, cyber 
issues, public health issues, immigration and border issues, 
drugs, a whole variety of areas.
    I think our objectives really need to be threefold. First, 
avoid events; second, to maximize preparedness; and third, to 
manage the consequences.
    I would make an observation. I think last week dramatically 
illustrated how Federal, State and local entities, and how 
public and private sector entities, can rise above silos and 
narrow institutional interests and borders that are real or 
perceived, and manage consequences with outstanding results.
    We need to figure out how we can best (1) avoid events, (2) 
maximize preparation, and (3) manage a crisis if an event 
occur.
    Chairman Lieberman. Have your folks done any work on--I 
keep coming back to them--chemical and biological? In other 
words, I think what has been said is the difficulty of 
preventing here, apart from intelligence, very high, very 
difficult. So perhaps part of this is response and the state of 
our preparedness now to respond. Has your office done any work 
on that?
    Mr. Walker. Mr. Chairman, we have done some work on bio-
terrorism and on the chem-bio area. We have got some work 
ongoing right now with regard to that. Some additional reports 
are be coming out soon. I would be happy to provide information 
on that if you so desire.
    Chairman Lieberman. Senator Rudman.
    Senator Rudman. I just want to add one thing that I think 
none of us have addressed, but I am sure we all agree with. I 
think it was Vince Lombardi who said the best defense is a good 
offense. I mean since the intelligence community is very good 
at assessing the threat and the capability and knowing many of 
these organizations and the foreign governments that support 
them, the best way to start to cut down the threat is to 
eliminate the threat. And I thought the President was very 
eloquent last night when he said to these people out there, 
``Either you are with us, or you are with the terrorists.''
    Now, that has not been U.S. policy for a long time 
irrespective of which party held the White House. That has not 
been U.S. policy. If that is U.S. policy and we are serious 
about it and the American people recognize that there will be 
loss of life amongst the military to protect our freedoms, then 
the best thing we can do is to start eliminating the threat. 
You will never get all of it, but you can sure get a lot of it 
if you work at it, and I think that is precisely how I read 
what the President had to say last night.
    Chairman Lieberman. A very important point. Apart from the 
eloquence, the fact that the President dealt with the public's 
fear and anger very constructively, what was stated last night 
and is reflected in both parties in Congress, this is a totally 
new policy to finally catch up with and meet the new threats 
whose reality became painfully clear to us last Tuesday, but we 
have turned a corner both in terms of the search and pursuit of 
terrorists internationally and in our willingness and 
commitment to defend ourselves here at home from their attacks.
    Senator Rudman. And unfortunately, but not unsurprisingly, 
in a democracy such as ours, it took what happened on September 
11 to galvanize everyone to that point of view.
    Chairman Lieberman. Right. Let me ask the members of the 
two commissions now to engage directly on the question of the 
organizational response. I think you see the problem in very 
similar terms, and each commission said homeland attacks are 
likely, there are agencies out there working on it, but they 
need to be coordinated. And let me ask you each why you chose 
the course you did and why you did not choose the other 
recommendation?
    Senator Rudman. Well, we chose our plan for really two 
reasons. First, it was the collective wisdom of that panel--and 
if you look at that panel they are people with extraordinary 
experience in Federal Government, not local and State, which is 
very important for what the Gilmore Commission--but they are 
all people who have held major positions in the Federal 
Government. If you want to take the Border Patrol and leave it 
where it is, and leave Customs where it is, and leave Coast 
Guard where it is, and have someone in the White House, no 
matter how friendly the President or how good, and assume that 
person will strongly influence those agencies, it is not going 
to happen. Now, we believe that. Others may not, but we believe 
that.
    Now, certainly we set up a liaison agency here if you will. 
If you look at, have your staffs later look at page 17 of our 
report, and again, on the emergency side on page 21, you will 
see the organization. Why it is written that way and why it is 
done that way is we said let us try to protect the borders, and 
I think Senator Hart has said that as well as it can be said, 
and I think Ambassador Bremer has indicated that he thinks 
maybe in some other form that might work. That has to be done 
in our view.
    Beyond that, you have to have this agency, whether it is an 
office in the White House or a cabinet department, we think a 
cabinet department. Once you get that reorganization done, 
there will be time to do all of the things that these two 
commissions say need to be done, Federal, State and local.
    But I have to tell you, Mr. Chairman, I have enormous 
respect for the Governor and his commission, but I have seen 
others come into the White House with supposedly high-
visibility positions, and a few months went by, and they were 
not reporting to the President, they were talking to some staff 
aide--I hate to be that blunt, but I am just going to lay it 
out the way it is--and the Secretary of Defense is not in the 
White House. He is sitting over in Virginia. But he is 
important, and when he wants to see the President, he sees the 
President, and we believe that you could have a cabinet 
secretary with the same kind of responsibilities without being 
necessarily located at the White House. But we think the 
reorganization is very important from a functional point of 
view.
    Chairman Lieberman. Senator Hart.
    Senator Hart. I think it gets down to one word, and that is 
accountability. If a White House office has authority to 
coordinate, the agencies that it has authority to coordinate 
are not necessarily accountable to that office. They are 
accountable to their department head, cabinet secretary or 
whatever. They will accept the coordination recommendations. 
There will be a lot of task forces and working groups and so 
forth, but no one is accountable. No one is accountable today. 
The President of the United States, but I think the President 
has, in his wisdom, understood that he cannot run this 
operation. Somebody else has to. The question is: What is most 
effective? What is effective? Is there a single person 
accountable to the President and the American people? And I do 
not think, whether it was energy in the 1970's, drugs in the 
1990's, as much power as you give the czar or whatever you want 
to call that person, they are ultimately accountable.
    Chairman Lieberman. Governor, you have served as a 
Governor, you know the importance of authority and 
accountability, why not go with an agency such as the Senators 
have described?
    Governor Gilmore. Senator, obviously, we are very 
respectful of the other panel's conclusions and its 
suggestions, and it is on the table for debate just like every 
other issue, and that is what we are engaged in right now. Our 
sense as a panel was that a national security coordinator type 
of model perhaps works better. This is a single person who is 
in fact accountable. And as the President said last night, that 
Governor Ridge would be reporting directly to him. We think 
that is setting off in the right direction. We have to 
remember, Senator, that an attack by the terrorists and the 
entire community of terrorists can be on the fabric of a 
complete free society, and it can be anywhere at any time at 
anywhere. So how do you ever conglomerate every aspect of the 
society into one homeland agency? Instead the emphasis needs to 
be on coordination of all agencies as needed, as planned, as 
part of an overall strategy for the national strategy.
    I think it was said a little while ago that the big dogs 
are still going to be there to run, and we understand that, 
because the major people in national security, the Secretary of 
Defense, the Director of Central Intelligence, they all have 
duties to do, and they are going to want to do them in the most 
effective possible way that they can. If they are competing 
just with simply another agency on the same level in the same 
way, then there is going to be the danger and hazard. There is 
going to be turf battles and back and forth, but if the 
President is basically operating this business through his 
national coordinator, his national office, that it is the 
President's authority that then begins to coordinate and manage 
from the top, and then at that point I think you begin to be 
able to put something together in a coordinated way.
    Chairman Lieberman. How about the argument that the 
Senators make that unless there is direct line and budget 
authority, that the office in the White House is not going to 
be as effective as it should be?
    Governor Gilmore. We agree. As a matter of fact, we have 
proposed in our reports that in fact that the national 
coordinator have in fact budget authority within the area of 
terrorism, so that a national strategy goes into place each and 
every department and agency fits within it, including its plan 
for its expenditures so it can be spent in the most effective 
possible way, and that there be a certification process where 
this individual looks not just at his agency, but at all 
agencies in order to determine whether or not the spending and 
the budgetary considerations are coordinating with the national 
strategy.
    Chairman Lieberman. Ambassador Bremer.
    Mr. Bremer. Both of these suggestions involve pretty 
dramatic changes in the Executive Branch, so either way we are 
up to some pretty dramatic changes. I am very sensitive to the 
point that the Rudman-Hart panel made about the difficulties of 
coordination. It actually can work without direct budgetary--
without command and control authority, and the example I would 
give is exactly how the government has coordinated its 
international counterterrorist policy over the last 15 years, 
and I was intimately involved in setting up that process back 
in the second Reagan Administration. And effectively, it is a 
person on the NSC who does that coordination. Now, he had no 
authority over me as Ambassador-at-Large for Counterterrorism, 
nor over the CIA, nor over the other concerned agencies, but 
was able by virtue in fact of being located in the NSC, to 
coordinate. You could say, well, why do we not just do the same 
thing? Well, the answer is, he is not politically accountable. 
No President, and for very good reasons in my view, having been 
in the Executive Branch, is going to have NSC people be 
accountable to Congress.
    And therefore, when we got looking at this question, we 
came back to this question about budget authority and political 
accountability, and concluded you need to have it be cabinet 
level. It needs to be somebody with the advice and consent of 
the Senate appointed, and he needs to have the budgetary 
authority that we put in our report.
    Chairman Lieberman. Mr. Walker, let me ask you first, and 
then the others if they want to respond. Are these two 
proposals mutually exclusive?
    Mr. Walker. You read my mind, Mr. Chairman. I do not think 
they are mutually exclusive.
    Chairman Lieberman. Spending too much time with you, David.
    Mr. Walker. We spend a lot of time together, and I enjoy 
it, personally.
    I do not think they are fundamentally at odds. The fact of 
the matter is that you have 40 to 50 plus Federal entities that 
are going to be involved in this fight. There is no question 
about it. And theoretically you could say that there are 
certain entities that you might be able to consolidate. As 
Senator Hart said before, there are some entities that are 
merely placed where they are today based upon what they were 
originally focused on decades ago, and those reasons may no 
longer be the most important reasons or even valid in some 
circumstances. And, by the way, there are a lot of other 
government departments and agencies outside of homeland 
security that are in the same situation.
    You could theoretically consolidate a number of those that 
should be focused primarily on what we could all define as 
being homeland security. But even if you do that, a vast 
majority of the resources and a vast majority of the people 
that are going to be necessary in order to accomplish the three 
objectives that I talked about before, are not going to be in 
that entity in all likelihood. And therefore, you still have to 
have some means to have somebody, as Senator Hart said, who has 
overall responsibility and accountability, who has the ability, 
as Governor Gilmore has said, to be able to have control not 
only over the planning, but the execution, who has some direct 
involvement in control over people, process and technology, 
even if they are not in that entity that you have consolidated.
    And so I think there are several dimensions of this 
challenge that have to be addressed.
    Chairman Lieberman. Senator Rudman, I presume you could not 
have an office in the White House and an agency dealing 
exclusively with homeland security, or does that seem like an 
unnecessary overlap? The fact is that you cannot include 
everything in the Homeland Security Agency related to terrorism 
or weapons of mass destruction.
    Senator Rudman. Let me answer the question that you just 
have posed to us, because I think there are some great 
similarities here. Let us understand what our commission 
recommended in terms of government reorganization. The only 
area that we considered in the area of government 
reorganization was ``protect the border,'' because that is so 
fundamental. I mean, we would all agree, if you cannot protect 
the border better than we are doing now, then no matter how 
good your intelligence, how good your response, you got big-
time trouble coming at you.
    So we said--and I think Gary Hart put it better than I 
can--here is what these people used to do, here is why they 
were created. Let us protect the border and take Coast Guard, 
Border Patrol, and Customs. Now, that goes into a cabinet-level 
agency which has all of the kinds of responsibilities that 
Governor Gilmore and Ambassador Bremer have talked about, and 
the comptroller general, in terms of coordinating, I believe it 
is 51, take away three after you took those three agents, but 
it is 48 disparate government responsibilities in the area of 
responding, protecting, and preventing terrorism. And I think 
the only difference is, that we are saying that Governor Ridge 
would be confirmed by the Senate. He would sit at the cabinet 
table. He would not be competing with other people's resource 
in that area. Those three entities would have their budget 
about to where they are now or increased by the Congress, but 
the only agents to be moved in would be that which protected 
the border. All of the others, and we all know the obvious, the 
Defense Department, CIA, FBI, but there is HHS and the Governor 
probably knows even more than that, having dealt with them as a 
Governor, they would still be where they are, but they would be 
subject to strong coordinative authority issued by the Congress 
in statutory language and the President by Executive Order to 
get it done. So I do not think there is a huge difference about 
what we are talking about here.
    But we are very firm about the fact that these three 
agencies ought to be where they are, and FEMA, of course, which 
we think is a major building block.
    Senator Hart said to our group, about 2 years ago, when we 
were debating some of these things, ``Let us not recommend to 
the Congress and to the President that which we think is 
politically doable. Let us submit, in our report, what we think 
ought to be done.'' And this was one of the big hot buttons, 
and we knew it at the time. That is no reason it should not be 
done.
    Chairman Lieberman. The big hot button was bringing those 
agencies----
    Senator Rudman. Was bringing these three, taking them away 
from where they are.
    Chairman Lieberman. Let me ask you the question while we 
are on it, because I was going to ask it in a while, which is: 
What about the other functions of those agencies, particularly 
Coast Guard, but also Customs and Border Patrol, but 
particularly Coast Guard, that are not directly related to 
homeland defense, such as navigational security that the Coast 
Guard does?
    Senator Rudman. They would keep their absolute identities, 
just as the Coast Guard did when it went into the Department of 
Transportation. Its mission did not change. Its mission was the 
same.
    Chairman Lieberman. Right.
    Senator Rudman. All we are saying is that a very heavy part 
of their responsibility, those three agencies, is border 
security from goods and from people, and we think they ought to 
be together.
    Chairman Lieberman. Governor Gilmore, are these two 
proposals mutually exclusive? I mean, could you envision 
yourself being supportive of a kind of agency that would 
combine FEMA, Border Patrol, Customs, Coast Guard, that Senator 
Rudman has talked about?
    Governor Gilmore. Senator Lieberman, the essence of 
legislative life is a combination of different proposals.
    Chairman Lieberman. Spoken like a Governor. [Laughter.]
    Governor Gilmore. No, spoken like a legislator, I believe.
    Chairman Lieberman. I accept your amendment, spoken like a 
former legislator.
    Governor Gilmore. Naturally, we are all very deeply 
respectful of every proposal that is here, and I am confident 
that they could be harmonized, and that they could be 
accommodated to each other if that is what it takes in order to 
pass a piece of legislation and to get the votes.
    From an executive point of view, sometimes you must choose 
that which is best, and weigh and balance the different options 
as meritorious as each of them may be, and ultimately choose. 
Our belief has been that the answer here was not any 
bureaucracy, but a vehicle for management, and a vehicle for 
management. I believe the President has established a vehicle 
for management with Governor Ridge last night. I suppose that 
one could put these pieces together, and you could have an 
agency. It would then go into the cabinet I suppose, a border 
cabinet position or something, or an agency, something of that 
nature. And then it would fight for turf, budget issues, and 
accommodations and influence with other perhaps bigger dogs. 
That is all right. But ultimately, we believe the ultimate 
answer is the coordination, budget authority, planning of a 
national strategy from a national terrorism office that I 
believe that the President has now established.
    Chairman Lieberman. Anyone else want to comment on that 
last question? If not, let me go to another part of this. I 
noticed my staff gave me two articles from the Defense Trade 
Press today in which there were statements made, attributed to 
people in the Pentagon, that we are talking about defense here. 
So why should this not go under someone in the Defense 
Department? Why should there not be a new unified command for 
homeland defense? Presumably, although the article is not 
totally clear on this, that would include the border control 
agencies and even the preparedness that we are talking about. 
Senator Hart.
    Senator Hart. Two and a half reasons. One is the 
Constitution of the United States. The second is the Posse 
Comitatus Law. The third is this practical necessity.
    The constitutional argument dates to the constitutional 
debate. What we did then, 225 years ago, was create two armies. 
The Federalists wanted a standing army and navy to protect 
American commercial interests broad, Alexander Hamilton. The 
anti-Federalists were afraid, dating to classic Republican 
theory from the Greek city-states, that a standing army in 
peacetime in a republic was a danger. So they insisted that the 
defense of the homeland be in the hands of the militia, and the 
militia would be under the control of the States, and that was 
the compromise. Now, the militia, in the late 19th Century, 
became the National Guard. In the 20th Century the National 
Guard became an auxiliary expeditionary force, and that's the 
way they think of themselves. But the fact of the matter is, 
their primary duty under the Constitution is to defend the 
homeland of the United States. Now, as Senator Rudman has 
appropriately said, we have not said that is their exclusive 
duty. They have not heard what we said, but we have not said 
that is their exclusive duty. They can still keep their, and 
need to keep their ability as a follow-on expeditionary force, 
that a primary, if not the primary, mission of the National 
Guard is to defend the homeland. That is the constitutional 
argument.
    The statutory argument, as you know, prohibits the use of 
American troops, regular army forces, on our soil, absent 
declaration by Congress. And that goes back to, oddly enough, a 
very closely-contested national election in 1874. So you have 
got a statutory prohibition against the Defense Department 
running this thing in effect.
    And practically, as Senator Rudman said, National Guard 
units are forward deployed in 2,100 different units around the 
country. Now, you are going to get the argument that the Guard 
is ``weekend warriors,'' and incompetent. Wrong. If the 
National Guard can fight world wars, and it has, it can defend 
the homeland. It has to be properly trained and equipped. It is 
to today? Largely not, but if it is made a national priority 
and the Commander in Chief orders it done, it will be done. 
These are citizen soldiers. These are people in the communities 
and if you need--if the terrorists take over a downtown office 
building in Denver, it is going to be a while before the 82nd 
Airborne Division gets there and the damage may be done. But 
the Governor knows you can mobilize the Guard awfully fast and 
special units particularly, and if you have had any prior 
warning, they can be ready to go. They are in the streets of 
New York. They were within hours, not too many hours.
    So I focused my attention here on the Guard because it is 
the solution to the question that you have asked. It is a 
constitutional military power under the control of the States, 
locally deployed, and trainable and equipable for this mission.
    Chairman Lieberman. I admire your answer, appreciate it. 
You must have had some very interesting sessions of this 
commission.
    Senator Hart. You do not know the half of it.
    Chairman Lieberman. Well, I do not want to hear half of it. 
[Laughter.]
    Senator Rudman. Well, let me tell you, interesting enough, 
Newt Gingrich, who was the father of this idea, on the theory 
that no good deed goes unpunished, when he left the House, was 
put on this commission. And he is a historian who brought a lot 
of insight.
    Let me just add one thing to answer your question. The 
military made it very clear they do not want this primary 
responsibility. That is not theirs. They have enough to do 
protecting the Nation overseas, and they do not think that they 
should have it.
    However, everyone agrees, that if we had had a chemical, a 
nuclear or a biological incident in this country, it is only 
the active force military with the National Guard that would 
have the resources to deal with the horrendous situation that 
would face the country under those circumstance. That is a 
response issue.
    Chairman Lieberman. Let me ask you just a quick question 
here about the role of the National Guard as you contemplate it 
in homeland defense. If you take your tripartheid approach of 
the responsibilities of the Homeland Security Agency, prevent, 
protect and respond, is it primarily in the respond part that 
you see the Guard being active?
    Senator Rudman. Yes, it is. Some protection, but mainly 
response, and I think Governor Gilmore would be in a better 
position to tell you when they have had disasters in Virginia, 
hurricanes and whatnot, I mean there is nothing like the Guard, 
even though many are not trained to do that. We say they need 
specific training to deal with these kind of contingencies.
    Chairman Lieberman. What were you thinking about, Senator 
Hart, when you said there might be a role in protection as 
well?
    Senator Hart. Well, let us hypothesize, which I hate to do 
because in an interview a few days ago I said this could happen 
in Nashville, Denver and Seattle, and my phone has been ringing 
off the hook from people in those three cities. Take a city, 
Hartford. [Laughter.]
    Chairman Lieberman. Thanks. [Laughter.]
    Senator Hart. Sorry.
    Chairman Lieberman. What was your phone number? [Laughter.]
    Senator Hart. Let us say intelligence picks up a threat. 
Let us say the intelligence is precise enough to say probably a 
capital city in New England. I can see the Guard, units of the 
Guard, not the whole Connecticut National Guard, but units 
specially trained, paramilitary units of the Guard, in a 
protective role, working with the State patrol, the local 
Hartford police, to find them and prevent them from acting.
    Chairman Lieberman. Good example. Governor, how about the 
role of the military generally, why the commission decided to 
not ask the Pentagon to take this over, and then specifically, 
uniquely as Governor, how you see the role of the National 
Guard here?
    Governor Gilmore. Senator Lieberman, this is a very 
important question, and I want to be as forthright as I can. We 
also will be addressing an entire provision of our third report 
to the issue of the use of the military. We have had thorough 
discussion about it over a long period of time. We absolutely 
reject the Department of Defense playing a leading role even in 
the event of a weapon of mass destruction catastrophic attack 
should the President conclude that only regular military can 
step in to help, even then we recommend that that be 
subordinate to a Federal civilian agency, logically FEMA. If 
the military has to be engaged, they should be engaged only at 
the request and in support of FEMA and the combined operation 
of State and local people as well.
    We reject the use of the military in any first type of 
response. It is exactly what the enemy wants, is to have United 
States military people patrolling the streets of our Nation and 
imbuing our citizens with the idea that they are to be 
controlled by uniform military people. It is absolutely against 
the American tradition.
    And furthermore, Senator, I have made some statements, and 
I believe that I reflect the panel's feelings, that we should 
never ask any American to give up any civil right in return for 
security. The civil rights and human rights of the people of 
the United States under the Constitution are absolutely 
paramount, and we should not give the enemy the win to say that 
we should in any way compromise any of that. As a former 
elected prosecutor, I know that you can take actions consistent 
with the Constitution and security--the Fourth, the Fifth, and 
the Sixth Amendments. You can do these things. But we should 
not cross that line, and we are concerned that the use of the 
military, unless it is in a subordinate capacity, would be in 
fact moving down that direction. And all our representatives in 
the Department of Defense on our panel have concurred that they 
should not be first responders.
    And the second point I would make is to remember, when you 
start thinking about sticking something like this in the DOD, 
remember the key provision that we have put forward, the locals 
and the States absolutely must be built in to the local 
response. I cannot imagine a day that the local and State 
officials across the 50 United States will become subordinate 
to a military authority in the case of a crisis. And in fact, 
if you went the DOD route, even there are some Federal agencies 
that would be a little uncomfortable with that, the CIA 
perhaps.
    Chairman Lieberman. Thank you for the answer. I was 
thinking, as you were talking, that I have spoken to a number 
of people in New York, and people do not want the Guard 
patrolling streets in normal times, but the rapid appearance of 
the National Guard on the streets of New York after the attacks 
was immensely reassuring to the public there.
    Governor Gilmore. Senator Lieberman, two things. First of 
all, the Guard is a little different, as Senator Hart said. 
They are the historical militia of the United States. They are 
under control of the Governor of each individual State, that 
civilian authority, unless federalized, and I do not believe 
there has been a federalization in any of these disasters. So 
that is a little bit different, but in addition to that, even 
then, they should come in subordinate to the first responders, 
police, fire, rescue, health, medical, and then come in to 
provide additional hands, and then finally, as the situation or 
the attack escalates or becomes a weapon of mass destruction, 
then perhaps the regular services, but only in response to and 
at the request of a civilian authority.
    Chairman Lieberman. Ambassador Bremer, correct me if I am 
wrong. It is my impression, not that you disagree with what has 
been said, but that you have a more expansive view of the 
potential role of the military in these matters. Is that true?
    Mr. Bremer. The National Commission on Terrorism, which I 
chaired, which was a bipartisan commission appointed by 
Congress, reached a slightly different conclusion which was 
based on the following analysis. It is possible, particularly 
if one considers biological and chemical terrorism, to imagine 
a circumstance, as we said in our report, where not thousands 
but tens of thousands of casualties are inflicted. In such a 
circumstance it is possible to imagine that one event or 
several events like this would quickly overwhelm available 
local, State and Federal capabilities, including FEMA. In such 
circumstances, we said, the President of the United States 
ought to have the possibility on a one-time ad hoc temporary 
basis of asking the Department of Defense to be the lead agency 
in responding to such an attack or series of attacks.
    There are no plans for that to happen for a lot of the 
reasons that the Governor has mentioned and others. Our view is 
that under those circumstances, again, hypothesizing a much 
worse attack than we saw last week, the President in fact is 
likely to do that. He is likely to move the military into the 
lead agency because they do have all of the capabilities. Our 
commission's view, and I speak now for the National Commission, 
not for the Gilmore Commission, our commission's view was the 
best way to protect civil liberties in that circumstance is to 
plan for it ahead of time and exercise it. The worst way to 
protect civil liberties is never to even allow the possibility.
    And the example I have given, Senator, in testimony on my 
National Commission, is what happened after Pearl Harbor, the 
last major domestic attack, when the two great American 
liberals, Franklin Delano Roosevelt and Earl Warren, responded 
by locking up Japanese Americans. Although the Supreme Court 
upheld that decision--most Americans today believe that was a 
violation of their civil liberties. So I take the opposite view 
precisely because of the respect I have for civil liberties, 
and that was the unanimous consensus of my bipartisan 
commission, which is, as you point out, different from where 
some others have come out.
    Chairman Lieberman. Very interesting and worth thinking 
about. It is true also that in the recent crisis the President 
did deploy military assets in response in a very controlled 
way. For instance, the fighter planes that were sent out over 
American cities, the AWACs, and in a very different way, the 
medical ships, for instance, that came in to New York and maybe 
other areas as well.
    Mr. Walker, a final question just to give a perspective. I 
believe the GAO has done some comparative work here on the way 
other countries in the world deal with homeland security, and 
the role of the military in homeland security, and I wonder if 
you could just speak for a moment about that.
    Mr. Walker. Senator, we have done some work with regard to 
how certain other countries such as Canada, the United Kingdom, 
France, and Israel, end up approaching this issue. We have 
already issued a report on that. It is publicly available, and 
it would provide some useful information for you and the 
Congress to consider. One of the things that we find at GAO is 
that we are very much in a borderless world. In many cases the 
United States is the lead with regard to many types of 
activities. In some cases we are not. And in this area we are 
not. And there are other countries that have been dealing with 
this issue for longer than we have for various reasons, and I 
think there are some lessons learned there that we ought to 
draw from.
    Chairman Lieberman. We will look to that. You have been 
immensely helpful. Any of you want to make a statement? Yes, 
Senator Hart?
    Senator Hart. Mr. Chairman, in our efforts since our 
commission to convey what our report does and does not do at 
both the congressional staff and administrative and media 
level, a lot of misunderstanding has occurred. And I know you 
get, and your staff gets, dozens of these. We obviously believe 
this is an extraordinary effort, a historic effort.
    Chairman Lieberman. We agree.
    Senator Hart. May I just say if any on your staff or any of 
your colleagues need to understand what we do and do not do, 
the first report is 8 pages, the second report is 16 pages. 
Eleven pages of this one will show you what we propose and what 
we do not propose, and I would really hope anyone making a 
decision as to what the congressional response should be, or 
the administrative response, should at least read those 35 
pages. It is not too much.
    Chairman Lieberman. I absolutely agree. We will make sure 
that, with your cooperation, that every Member of the 
Committee, if they have not already, gets copies of the 
reports. I have been over them, and they are superb pieces of 
work, as is your commission's work, Governor Gilmore.
    I thank each and every one of you. You have been very 
constructive. You were ahead of your time, ahead of the rest of 
the Nation's time unfortunately, but it is not too late now to 
put into effect the recommendations that you have made to deal 
with the new realities that we face.
    This Committee will continue its consideration of 
protection of critical infrastructure next week with two 
hearings, one on airline security and then the other on what we 
are doing now to protect other elements of critical 
infrastructure, including other transportation systems, public 
utilities, and the computer infrastructures on which so much of 
our country today, including the financial systems, are based. 
And then I certainly hope that we can engage Governor Ridge and 
the administration as quickly as possible.
    And I would like to set the goal for the Committee, and I 
believe Senator Thompson shares this--we have talked about it--
to see if we can work with everyone involved here and report a 
bill out soon. These are not ordinary times and we should not 
be following an ordinary legislative schedule. The President, 
by his action last night, if you will, closed the gap, and now 
I think we have to act with the administration to create a 
permanent structure here to forever after protect the American 
people when they are at home.
    We are going to keep the record of the hearing open for a 
week. Senators Akaka and Voinovich have submitted statements, 
which I would like to add for the record.
    [The prepared statements of Senators Akaka and Voinovich 
follow:]

                  PREPARED STATEMENT OF SENATOR AKAKA
    Mr. Akaka. Good morning. I commend the Chairman for calling this 
hearing and thank all the witnesses for being here. It is a pleasure to 
have such expertise on this subject here today. I especially want to 
welcome my friends and former colleagues, Senator Hart and Senator 
Rudman.
    In the face of tragedy, our leadership must be steady and our voice 
calm but firm. The President is right to say this will be a long 
conflict.
    I was a young man when Pearl Harbor was attacked. I watched as 
Japanese Zeros bombed Hawaii and my country. Then we knew our enemy, 
but today's faceless terrorist is more difficult to identify.
    Dreadful as the attacks were on September 11, we can imagine some 
which could be even more lethal. In July the International Security 
Subcommittee, which I chair, held a hearing on FEMA's Role in Managing 
a Bio-terrorist Attack. One truth became clear: We lack a national 
security strategy and institutional organization to address terrorist 
attacks.
    This threat is amorphous . . . amoral . . . without race . . . or . 
. . ethnicity and may operate from several countries. It is asymmetric 
in the sense that it exploits our strengths--in technology and 
organization--and turns them into weaknesses. This Nation's commercial 
airline system, piloting knowledge, and the way our institutions are 
designed and our people trained to react to such threats, were turned 
into a weapon against us. Our airline system is clearly not our only 
vulnerability. This was not Pearl Harbor--this was an asymmetric attack 
altogether different than anything we have experienced.
    The response last week reflected a strategy and coordination that 
was inadequate. Today's hearing properly focuses on how our Nation's 
institutions must be reorganized in a way that maximizes their ability 
to react effectively.
    Today the enemy of democracy is less definable in a world that was 
forever altered on September 11. I look forward to the testimony.

                               __________

                PREPARED STATEMENT OF SENATOR VOINOVICH
    Thank you, Mr. Chairman.
    I would like to thank you, Mr. Chairman, for holding this hearing 
this morning on the Federal Government's role in responding to 
terrorist threats against the United States. I would also like to 
welcome our witnesses and thank them for being here today.
    Mr. Chairman, last Tuesday, the United States of America suffered a 
horrible national tragedy, the images of which will forever etch the 
date, September 11, 2001, on the collective minds of the American 
people. The events of that day and the days following the terrorist 
attack have highlighted just how important a role our Federal 
agencies--and the individuals who work for them--play in the defense of 
our Nation.
    While this Committee has broad jurisdiction to examine the 
efficiency and effectiveness of these agencies, there is perhaps no 
greater function that we can undertake than ensuring that those 
entities of our Federal Government are properly arrayed and structured 
to deal with any attack on our homeland. Both the Hart-Rudman and 
Gilmore Commissions have released reports in recent months on this 
issue. Little did we know that their observations would be so 
prescient. In the wake of last week's tragic events, I believe we 
should consider more carefully than ever the recommendations of these 
two commissions and ensure that our government is prepared to act 
expeditiously in responding to any future attacks.
    Mr. Chairman, we have an excellent panel of witnesses with us 
today, and I am especially pleased to welcome Senator Gary Hart and 
Senator Warren Rudman. As you know, Mr. Chairman, earlier this year, 
the Oversight of Government Management Subcommittee held a hearing on 
the national security implications of the human capital crisis. I was 
pleased to have former Defense Secretary James Schlesinger and retired 
Admiral Harry Train, two of the commissioners who worked with Senators 
Hart and Rudman, as witnesses at that hearing. They offered excellent 
testimony on preparing our Federal workforce for the challenges of 
national defense in the 21st Century, and I will be interested in 
hearing the recommendations of our witnesses today on the homeland 
security section of their report.
    Mr. Chairman, like all Members of this Committee, I wish we did not 
have to conduct this hearing under these circumstances. However, I 
think it is important, in light of last Tuesday's tragedy, to get this 
dialogue going so that we may ultimately eliminate the threat of 
terrorism once and for all.
    Thank you again, Mr. Chairman.

    Chairman Lieberman. But you have each done extraordinary 
public service here, and I thank you for it. The hearing is 
adjourned.
    [Whereupon, at 12:07 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6801.001

[GRAPHIC] [TIFF OMITTED] T6801.002

[GRAPHIC] [TIFF OMITTED] T6801.003

[GRAPHIC] [TIFF OMITTED] T6801.004

[GRAPHIC] [TIFF OMITTED] T6801.005

[GRAPHIC] [TIFF OMITTED] T6801.006

[GRAPHIC] [TIFF OMITTED] T6801.007

[GRAPHIC] [TIFF OMITTED] T6801.008

[GRAPHIC] [TIFF OMITTED] T6801.009

[GRAPHIC] [TIFF OMITTED] T6801.010

[GRAPHIC] [TIFF OMITTED] T6801.011

[GRAPHIC] [TIFF OMITTED] T6801.012

[GRAPHIC] [TIFF OMITTED] T6801.013

[GRAPHIC] [TIFF OMITTED] T6801.014

[GRAPHIC] [TIFF OMITTED] T6801.015

[GRAPHIC] [TIFF OMITTED] T6801.016

[GRAPHIC] [TIFF OMITTED] T6801.017

[GRAPHIC] [TIFF OMITTED] T6801.018

[GRAPHIC] [TIFF OMITTED] T6801.019

[GRAPHIC] [TIFF OMITTED] T6801.020

[GRAPHIC] [TIFF OMITTED] T6801.021

[GRAPHIC] [TIFF OMITTED] T6801.022

[GRAPHIC] [TIFF OMITTED] T6801.023

[GRAPHIC] [TIFF OMITTED] T6801.024

[GRAPHIC] [TIFF OMITTED] T6801.025

[GRAPHIC] [TIFF OMITTED] T6801.026

[GRAPHIC] [TIFF OMITTED] T6801.027

[GRAPHIC] [TIFF OMITTED] T6801.028

[GRAPHIC] [TIFF OMITTED] T6801.029

[GRAPHIC] [TIFF OMITTED] T6801.030

[GRAPHIC] [TIFF OMITTED] T6801.031

[GRAPHIC] [TIFF OMITTED] T6801.032

[GRAPHIC] [TIFF OMITTED] T6801.033

[GRAPHIC] [TIFF OMITTED] T6801.034

[GRAPHIC] [TIFF OMITTED] T6801.035

[GRAPHIC] [TIFF OMITTED] T6801.036

[GRAPHIC] [TIFF OMITTED] T6801.037

[GRAPHIC] [TIFF OMITTED] T6801.038

[GRAPHIC] [TIFF OMITTED] T6801.039

[GRAPHIC] [TIFF OMITTED] T6801.040

[GRAPHIC] [TIFF OMITTED] T6801.041

[GRAPHIC] [TIFF OMITTED] T6801.042

[GRAPHIC] [TIFF OMITTED] T6801.043

[GRAPHIC] [TIFF OMITTED] T6801.044

[GRAPHIC] [TIFF OMITTED] T6801.045

[GRAPHIC] [TIFF OMITTED] T6801.046

[GRAPHIC] [TIFF OMITTED] T6801.047

[GRAPHIC] [TIFF OMITTED] T6801.048

[GRAPHIC] [TIFF OMITTED] T6801.049

[GRAPHIC] [TIFF OMITTED] T6801.050

[GRAPHIC] [TIFF OMITTED] T6801.051

[GRAPHIC] [TIFF OMITTED] T6801.052

[GRAPHIC] [TIFF OMITTED] T6801.053

[GRAPHIC] [TIFF OMITTED] T6801.054

[GRAPHIC] [TIFF OMITTED] T6801.055

[GRAPHIC] [TIFF OMITTED] T6801.056

[GRAPHIC] [TIFF OMITTED] T6801.057

[GRAPHIC] [TIFF OMITTED] T6801.058

[GRAPHIC] [TIFF OMITTED] T6801.059

[GRAPHIC] [TIFF OMITTED] T6801.060

[GRAPHIC] [TIFF OMITTED] T6801.061

[GRAPHIC] [TIFF OMITTED] T6801.062

[GRAPHIC] [TIFF OMITTED] T6801.063

[GRAPHIC] [TIFF OMITTED] T6801.064

[GRAPHIC] [TIFF OMITTED] T6801.065

[GRAPHIC] [TIFF OMITTED] T6801.066

[GRAPHIC] [TIFF OMITTED] T6801.067

[GRAPHIC] [TIFF OMITTED] T6801.068

[GRAPHIC] [TIFF OMITTED] T6801.069


</pre></body></html>
